EFFORTS TO PREVENT, IDENTIFY, AND
RECOVER IMPROPER AND ERRONEOUS
PAYMENTS BY SELECTED DEPARTMENT
     OF JUSTICE COMPONENTS

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 07-17
             January 2007
            EFFORTS TO PREVENT, IDENTIFY, AND RECOVER
          IMPROPER AND ERRONEOUS PAYMENTS BY SELECTED
               DEPARTMENT OF JUSTICE COMPONENTS

                              EXECUTIVE SUMMARY

      An initiative of the President’s Management Agenda, implemented in
August 2001, is the identification and reduction of improper payments within
the federal government. Improper payments are payments that should not
have been made or payments that were made for an incorrect amount
because of errors, poor business practices, or intentional fraud or abuse.
Improper payments include: (1) payments to an ineligible recipient,
(2) payments for an ineligible service, (3) duplicate payments, (4) payments
for services not rendered, and (5) payments that do not account for credit
for applicable discounts. Additionally, when an agency is unable to discern
whether a payment was proper due to insufficient or lack of documentation,
this payment must also be considered an error. 1

      According to a February 2006 Office of Management and Budget
(OMB) report, Improving the Accuracy and Integrity of Federal Payments,
the government-wide improper payment total reported for fiscal year
(FY) 2005 was $37.3 billion. The report also found that the amount reported
for FY 2005 was approximately $7.8 billion less than the $45.1 billion
reported in FY 2004. 2 However, improper payments remain a significant
problem in the federal government.

      In recent years, legislation has been enacted to address this problem
followed by implementation of guidance from OMB. This legislation requires
government agencies to conduct program inventories and assess each
program’s risk of making improper payments. Additionally, government
agencies are to report on progress made in identifying and recovering
improper payments.




      1
        The scope of this audit did not include improper payments identified when an
agency was unable to discern whether the payment was proper due to insufficient or lack of
documentation. This type of improper payment was first defined in Office of Management
and Budget Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, August 2006.
      2
         Office of Management and Budget, Improving the Accuracy and Integrity of
Federal Payments, February 2006.
Background

      Two federal laws address the prevention, identification, and recovery
of improper payments. Pub. L. No. 107-300 (2002), the Improper Payments
Information Act of 2002 (IPIA), requires the heads of federal agencies to
annually: (1) review all programs and activities to identify those susceptible
to significant improper payments, (2) estimate the amount of improper
payments, and (3) report the estimate to Congress. Additionally, for
improper payments estimated in excess of $10 million, the agency must
report the actions it is taking to reduce improper payments, including a
discussion of the potential causes, a statement on whether the agency's
information system and infrastructure are adequate to reduce improper
payments, and a description of the steps taken to ensure agency managers
are held accountable for reducing improper payments.

      Pub. L. No. 107-107 (2001), the National Defense Authorization Act for
FY 2002 (NDAA), Subchapter VI - Recovery Audits, requires all agencies that
enter into contracts totaling more than $500 million in a fiscal year to carry
out a cost-effective program to identify errors in payments and recover
amounts erroneously paid.

      Between January and May 2003, OMB issued three memoranda that
provided additional guidance related to the IPIA and the NDAA. In
August 2006, these three memoranda were consolidated into OMB
Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, which became effective immediately for
the FY 2006 Performance and Accountability Report (PAR). 3

      OMB Circular A-123, Appendix C details the IPIA information that
should be included within an agency’s PAR and requires that “when an
agency’s review is unable to discern whether a payment was proper as a
result of insufficient or lack of documentation, this payment must also be
considered an error.”

      For recovery auditing, OMB Circular A-123, Appendix C permits
contingency fee contracts, which allow a portion of recovered funds to be
used to pay recovery audit contractors. OMB Circular A-123, Appendix C
also provides guidance on the disposition of recovered amounts and directs
affected agencies to submit annual reports detailing recovery audit activities.
Additionally, the guidance states that "agency Inspectors General and other

       3
        The PAR is an annual report that provides information on an agency’s actual
performance and progress in achieving the goals in its strategic plan and performance
budget.



                                           - ii -
external agency auditors are encouraged to assess the effectiveness of
agencies' recovery audit programs."

       OMB issued Circular A-136 - Revised July 2006, Financial Reporting
Requirements, which superseded Memorandum M-04-20, FY 2004
Performance and Accountability Reports and Reporting Requirements for the
Financial Report of the United States Government, July 2004. Memorandum
M-04-20 directed agencies to include a description of recovery audit
activities in the PAR for FY 2004 forward. OMB Circular A-136 - Revised July
2006, requires additional information to be included in an agency’s annual
IPIA report, such as information from grant-making agencies, an improper
payment reduction outlook table, a list of contracts excluded from the
recovery audit program, and a table detailing the overall recovery audit
effort.

       In March 2006, the Department of Justice’s (DOJ) Justice Management
Division (JMD) issued the Financial Management Policies and Procedures
Bulletin 06-11 (Bulletin 06-11), which provides direction on recovery audit
programs and the IPIA for DOJ components.

Prior Audit

      In April 2005, the Office of the Inspector General (OIG) issued an
audit report on the Department of Justice Process for Identifying,
Preventing, and Recovering Improper and Erroneous Payments, Audit Report
Number 05-19. The audit included four DOJ components: (1) the Federal
Bureau of Prisons (BOP), (2) Office of Justice Programs (OJP), (3) Federal
Bureau of Investigation (FBI), and (4) United States Marshals Service
(USMS). The audit found that:

   •   The USMS and OJP risk assessments were not adequate to completely
       measure the risk of improper payments for all programs the
       components administered.

   •   The BOP, OJP, and USMS IPIA reports did not contain a complete
       description of the risk assessment performed.

   •   Weaknesses were identified in certain FBI and USMS policies and
       procedures used to prevent improper payments.

   •   None of the risk assessments included an analysis or consideration of
       any material weaknesses, reportable conditions, or non-compliance
       matters resulting from the components’ annual financial statement
       audits.


                                     - iii -
   •   The FBI, OJP, and USMS did not have processes in place to determine
       the full extent of improper payments.

   •   The BOP and OJP initiated recovery audit programs but had not
       implemented written policies and procedures. Additionally, the FBI
       and USMS had not initiated any type of formalized recovery audit
       program.

   •   JMD did not have an official reporting mechanism in place to monitor
       each component’s recovery audit activities. Additionally, JMD’s
       recovery audit guidance was not adequate to ensure consistency
       among the components related to progress in implementing and
       maintaining a recovery audit program.

       The OIG provided recommendations to these conditions. At the time
of this audit, all 22 recommendations had been agreed upon, 13 have been
fully implemented, and 9 are in the process of being implemented.

Audit Approach

       This audit was requested by JMD to review the remaining DOJ
components. Based on the magnitude of the government-wide improper
payments identified in the February 2006 OMB report and the findings
identified in the April 2005 OIG audit, we conducted a follow-up audit, which
included the: (1) Offices, Boards and Divisions (OBDs); 4 (2) Federal Prison
Industries (FPI); (3) Drug Enforcement Administration (DEA); and
(4) Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF).

      The purpose of the audit was to assess these components’ processes
for preventing, identifying, and recovering improper and erroneous
payments. Specifically, the objectives of the audit were to determine
whether the components established:

   •   policies and procedures for preventing improper and erroneous
       payments,



       4
          In order to assess the OBDs, we selected a sample of six subcomponents of the
OBDs to review and conclude upon compliance with the IPIA and the NDAA. The
subcomponents selected were the: (1) Regime Crimes Liaison Office (RCLO), (2) Office on
Violence Against Women (OVW), (3) Civil Division (CIV), (4) Office of Community Oriented
Policing Services (COPS), (5) Executive Office for Immigration Review (EOIR), and
(6) Wireless Management Office (WMO). The methodology for the selection of the OBD
subcomponents is detailed in Appendix I.



                                         - iv -
  •   policies and procedures for identifying improper and erroneous
      payments, and

  •   methods to recover improper and erroneous payments.

       We reviewed the FY 2005 IPIA reports submitted by the components
to JMD. The information in these reports was analyzed in conjunction with
Bulletin 06-11, dated March 2006. We used this approach in order to
identify any necessary enhancements for full compliance in the FY 2006 IPIA
reporting period.

Summary of Findings and Recommendations

Preventing Improper and Erroneous Payments

      We reviewed the policies and procedures to prevent improper
payments that were used by management at the OBDs, FPI, DEA, and ATF,
and the risk assessment prepared by each of those components.

      In evaluating the components’ efforts, we determined that the risk
assessments conducted by the OBDs, FPI, and ATF did not include an
analysis of the results from the most recent financial statement audit as
required by Bulletin 06-11. We also found that the OBDs’ risk assessment
did not include a review of federal award payments made by the recipients
and subrecipients as required by Bulletin 06-11. In addition, we found that
ATF did not conduct a risk assessment or program inventory for FY 2005 as
required by Bulletin 06-11.

       We recommend that JMD evaluate the recent changes to OMB
Circular A-123, Appendix C and determine whether changes need to be
made to Bulletin 06-11. We also recommend that Bulletin 06-11 be updated
to include component disclosure of: (1) an unqualified, qualified, or
no-assurance opinion related to the adequacy and effectiveness of internal
controls and the effectiveness of the internal controls over financial
reporting, following the requirements of OMB Circular A-123 revision,
Management’s Responsibility for Internal Control; (2) the reason for the
opinion and its effect on the component's risk of making improper
payments; and (3) any corrective actions being taken to address the opinion
and the component's risk.




                                    -v-
Identifying and Recovering Improper and Erroneous Payments

       JMD oversees DOJ components’ compliance with the IPIA and the
NDAA. In addressing this function, JMD has issued guidance that is detailed
in Bulletin 06-11 on complying with the IPIA and on conducting recovery
audits. After comparing Bulletin 06-11 to applicable laws and regulations,
we recommend that JMD improve Bulletin 06-11 by including time limits for
confirming or providing documentation refuting any improper payments
identified by the recovery audit contractor.

       In assessing the components’ efforts in identifying and recovering
improper payments, we reviewed laws and regulations applicable to recovery
audit activities, including Bulletin 06-11. We reviewed each component’s
FY 2005 IPIA report, which included a description of its recovery audit
program, and reviewed the recovery audit program in place at each
component. In addition, we interviewed component officials and reviewed
policies and procedures used by the OBDs, FPI, DEA, and ATF to identify and
recover improper payments.

    Table 1 illustrates the amounts identified and recovered by DOJ
components included in this audit.

Table 1: IMPROPER PAYMENTS IDENTIFIED AND RECOVERED BY
         SELECTED DOJ COMPONENTS
               IMPROPER   IMPROPER    IMPROPER
               PAYMENTS   PAYMENTS    PAYMENTS   PERCENTAGE
 COMPONENT    IDENTIFIED  RECOVERED  OUTSTANDING RECOVERED
  OBDs 5           $1,198,443            $916,711           $281,732             76%
  OBDs 6              215,212             203,896             11,316             95%
  FPI                  43,182              12,355             30,827             29%
  DEA                 403,305             386,833             16,472             96%
  ATF                  42,465               8,830             33,636             21%
    TOTAL          $1,902,607          $1,528,625           $373,983
Source: Management at the following DOJ components: the RCLO, COPS, OVW, WMO,
CIV, EOIR, FPI, DEA, ATF, and the recovery audit contractor. The differences in the totals
are due to rounding.



       5
         These totals are the amounts the recovery audit contractor identified and
recovered for all of the OBD’s components.
       6
        These totals are the additional amounts identified and recovered by the six OBD
subcomponents that were included in the scope of this audit. The subcomponents included
the: RCLO, COPS, OVW, WMO, CIV, and EOIR.



                                           - vi -
      Offices, Boards and Divisions. JMD manages the recovery audit
program for the OBDs. Beginning in May 2003, the OBDs utilized a private
contractor to conduct recovery audits. Payments made from FYs 1999
through 2004 were reviewed by the private contractor, as of April 2006.
While this effort was ongoing, the recovery audit contractor identified
improper payments totaling $1,198,443 for all of the OBDs. At the time of
our audit, the recovery audit contractor stated that $916,711 (76 percent)
had been recovered and $281,732 remained to be recovered. Additionally,
the six OBD subcomponents included in our audit identified an additional
$215,212 in improper payments, of which the subcomponents stated
$203,896 (95 percent) was recovered, and $11,316 remained to be
recovered.

      However, we determined that the OBDs could be underreporting the
improper payment amounts identified and recovered to JMD, due to breaks
in communication. These breaks occur when the OBD subcomponents do
not utilize the Notification of Erroneous Payments form (Attachment 2 of
Financial Management Policies and Procedures Bulletin 05-03 7 ) when
reporting improper payments to JMD. Additionally, the OBDs’ recovery audit
program did not consider a review of all categories of payments as required
by Bulletin 06-11. Specifically, a review of all grant payments was not
included in the OBDs’ recovery audit program.

       Federal Prison Industries. Beginning in July 2004, the FPI began using
a private contractor to conduct recovery audits. Payments made in FY 2003
were reviewed and vendor letters requesting reimbursement for
overpayments were sent for FYs 2003 through 2005. As of April 2006, a
total of $43,182 in improper payments had been identified and confirmed
from those fiscal years, and the FPI stated that $12,355 (29 percent) of this
amount had been recovered. The FPI stated that it is in the process of
recovering the remaining $30,827 from a single vendor and has requested
that the funds be returned.

      We determined that the FPI does not include a contract compliance
review as required by Bulletin 06-11. Specifically, according to FPI
management, the contract compliance review had not started because the
recovery audit contractor is not at the level to conduct this review. The
recovery audit contractor operates in phases, and has not implemented the
review yet. Further, we found that the FPI had not implemented a final
written policy for its recovery audit program as required by Bulletin 06-11.

       7
          Financial Management Policies and Procedures Bulletin 05-03, November 2004,
details the OBDs’ procedures for preventing, identifying, and recovering improper payments,
including controls built into the OBDs’ financial management system.



                                          - vii -
       Drug Enforcement Administration. Although the DEA's initial recovery
audit program began in FY 2004 and continued through FY 2005, it was not
a comprehensive recovery audit program. Instead, a statistical sample of
payments pulled from a population of all DEA payment categories, except
payroll, were selected and tested to determine if any improper payments
were made. Additionally, improper payments were identified by Contracting
Officer Technical Representatives, Financial Management Division, as well as
through other internal controls. In FY 2006, the DEA established a new
recovery audit program, administered by the Financial Analysis and
Reporting Unit (FNOF). The FNOF reviews all payments applicable to the
IPIA, instead of sampling payments. This effort constitutes a comprehensive
recovery audit program. As of May 2006, a total of $403,305 in improper
payments were identified and confirmed from FYs 2003 through 2005. The
DEA stated that it has recovered $386,833 (96 percent) of this amount and
is in the process of recovering the remaining $16,472.

      Bureau of Alcohol, Tobacco, Firearms and Explosives. Although ATF
began its internal recovery audit activities in 2001, as of May 2006, ATF
stated that it had recovered only $8,830 (21 percent) of the $42,465 in
improper payments it had identified, leaving $33,636 still to be recovered.
ATF officials stated that they planned to pursue the remaining amount, as
well as pursue collection of all identified improper payments.

       We determined that ATF did not consider a review of all categories of
payments required by Bulletin 06-11. Specifically, ATF should expand the
scope of its review to include all payments made from FY 2003 forward.
Further, ATF could be underreporting the improper payment amounts
identified and recovered to JMD because it is not tracking improper
payments separately from other debts and it is not maintaining information
on the scope of the improper payments identified and recovered.

       We also noted that ATF needs to improve its policy implementation
and compliance with existing requirements. We found that ATF should
demonstrate progress toward utilizing the recovery audit contractor or in
developing an internal recovery audit program compliant with all areas of
Bulletin 06-11 and other applicable laws and regulations. In addition, we
found that ATF did not have a final written policy for its recovery audit
program, which should be developed and implemented when a program is in
place as required by Bulletin 06-11.




                                   - viii -
            EFFORTS TO PREVENT, IDENTIFY, AND RECOVER
          IMPROPER AND ERRONEOUS PAYMENTS BY SELECTED
               DEPARTMENT OF JUSTICE COMPONENTS

                                   TABLE OF CONTENTS


INTRODUCTION .................................................................................. 1

   Background ....................................................................................... 1

FINDINGS AND RECOMMENDATIONS ..................................................... 9

   I.      PREVENTING IMPROPER AND ERRONEOUS PAYMENTS ................. 9

           Offices, Boards and Divisions......................................................12
           Federal Prison Industries............................................................14
           Drug Enforcement Administration................................................16
           Bureau of Alcohol, Tobacco, Firearms and Explosives ....................18
           Recommendations.....................................................................20

   II.     IDENTIFYING AND RECOVERING IMPROPER AND ERRONEOUS
           PAYMENTS ........................................................................... 23

           Offices, Boards and Divisions......................................................25
           Federal Prison Industries............................................................29
           Drug Enforcement Administration................................................31
           Bureau of Alcohol, Tobacco, Firearms and Explosives ....................34
           Recommendations.....................................................................36

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 38

STATEMENT ON INTERNAL CONTROLS ................................................. 40

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....................... 41

APPENDIX II - THE PRESIDENT’S MANAGEMENT AGENDA ....................... 43

APPENDIX III - DEPARTMENT OF JUSTICE OFFICES, BOARDS AND
DIVISIONS....................................................................................... 44

APPENDIX IV - UNITED STATES ATTORNEY DISTRICTS .......................... 45

APPENDIX V - ANNUAL IMPROPER PAYMENT INFORMATION ACT REPORT.. 47
APPENDIX VI - ACRONYMS ................................................................. 50

APPENDIX VII - JMD RESPONSE TO THE DRAFT REPORT......................... 51

APPENDIX VIII - FPI RESPONSE TO THE DRAFT REPORT ......................... 54

APPENDIX IX - DEA RESPONSE TO THE DRAFT REPORT .......................... 56

APPENDIX X - ATF RESPONSE TO THE DRAFT REPORT............................ 58

APPENDIX XI - ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
CLOSE THE REPORT .......................................................................... 61
                                   INTRODUCTION

      According to the Office of Management and Budget (OMB) report,
Improving the Accuracy and Integrity of Federal Payments, February 2006,
the government-wide improper payment total reported for fiscal year
(FY) 2005 was $37.3 billion. The report also found that the amount reported
for FY 2005 was approximately $7.8 billion less than the $45.1 billion
reported in FY 2004. Despite this improvement, improper payments remain
a significant problem in the federal government.

       Improper payments are payments that should not have been made or
payments that were made for an incorrect amount because of errors, poor
business practices, or intentional fraud or abuse. Improper payments
include: (1) payments to an ineligible recipient, (2) payments for an
ineligible service, (3) duplicate payments, (4) payments for services not
rendered, and (5) payments that do not account for credit for applicable
discounts.

       The President’s Management Agenda, August 2001, is a strategy for
improving the management and performance of the federal government, and
includes five government-wide initiatives, one of which is “Improved
Financial Performance.” 1 Included in this initiative are requirements for the
identification and reduction of improper payments within the federal
government. In recent years, legislation has been enacted to address this
problem followed by implementation of guidance from OMB. This legislation
requires that government agencies conduct program inventories and assess
each program’s risk for making improper payments. In addition,
government agencies are to report on progress made in identifying and
recovering improper payments.

Background

      Two federal laws address the prevention, identification, and recovery
of improper payments. Pub. L. No. 107-300 (2002), the Improper Payments
Information Act of 2002 (IPIA), requires the heads of federal agencies to
annually: (1) review all programs and activities to identify those susceptible
to significant improper payments, (2) estimate the amount of improper
payments, and (3) report the estimate to Congress. In addition, for
improper payments estimated in excess of $10 million, the agency must
report the actions it is taking to reduce improper payments and include a
discussion of the potential causes, a statement on whether the agency's

       1
        The five initiatives of the President’s Management Agenda are further detailed in
Appendix II of this report.



                                           -1-
information system and infrastructure are adequate to reduce improper
payments, and a description of the steps taken to ensure agency managers
are held accountable for reducing improper payments.

      Pub. L. No. 107-107 (2001), the National Defense Authorization Act for
FY 2002 (NDAA), Subchapter VI - Recovery Audits, requires all agencies that
enter into contracts totaling more than $500 million in a fiscal year to carry
out a cost-effective program to identify errors in payments and recover
amounts erroneously paid. These actions are known as "recovery audits."

      Between January and May 2003, OMB issued three memoranda that
provided additional guidance related to the IPIA and the NDAA. 2 In
August 2006, these three memoranda were consolidated into OMB
Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, which became effective immediately for
the FY 2006 Performance and Accountability Report (PAR). 3

       OMB Circular A-123, Appendix C requires that “when an agency’s
review is unable to discern whether a payment was proper as a result of
insufficient or lack of documentation, this payment must also be considered
an error.” 4 OMB Circular A-123, Appendix C details the IPIA information
that should be included within an agency’s PAR, which changed so that
agencies with improper payment estimates less than $10 million are no
longer required to complete the entire IPIA section of the PAR. Instead,
these agencies are required to report only the improper payment estimate
totals.

      For recovery auditing, OMB Circular A-123, Appendix C permits
contingency fee contracts, which allow a portion of recovered funds to be
used to pay recovery audit contractors. OMB Circular A-123, Appendix C
also provides guidance on the disposition of recovered amounts and directs

       2
          These three Memoranda included: (1) Memorandum M-03-07, Programs to
Identify and Recover Erroneous Payments to Contactors, January 2003; (2) Memorandum
M-03-12, Allowability of Contingency Fee Contracts for Recovery Audits, May 2003; and
(3) Memorandum M-03-13, Implementation Guidance for the Improper Payments
Information Act of 2002, P.L. 107-300, May 2003.
       3
        The PAR is an annual report that provides information on an agency’s actual
performance and progress in achieving the goals in its strategic plan and performance
budget.
       4
        The scope of this audit did not include improper payments identified when an
agency was unable to discern whether the payment was proper due to insufficient or lack of
documentation. This type of improper payment was first defined in Office of Management
and Budget Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, August 2006.



                                           -2-
affected agencies to submit annual reports detailing recovery audit activities.
Additionally, the guidance states that "agency Inspectors General and other
external agency auditors are encouraged to assess the effectiveness of
agencies' recovery audit programs."

      OMB issued Circular A-136 - Revised July 2006, Financial Reporting
Requirements, which superseded Memorandum M-04-20, FY 2004
Performance and Accountability Reports and Reporting Requirements for the
Financial Report of the United States Government, July 2004. Memorandum
M-04-20 directed agencies to include the following recovery audit
information, beginning in the FY 2004 PAR: (1) a discussion of each
agency’s recovery audit effort, (2) the amount of recoveries expected,
(3) the actions taken to recover them, and (4) the business processes
changed and internal controls instituted or strengthened to prevent future
occurrences. OMB Circular A-136 requires agencies to include the following
additional information in the annual IPIA report:

   •   Accomplishments in the area of funds management past the primary
       recipient, including the status on projects and results of any reviews,
       which are applicable to grant-making agencies with risk-susceptible
       grant programs.

   •   The reduction outlook table, which should include: (1) all
       risk-susceptible programs, whether or not improper payments were
       identified; (2) dates when measurements are expected to be provided;
       (3) the baseline measurement year; (4) separate dollar amount
       estimates if the estimates correspond to both newly and previously
       established measurements; (5) estimates for the future 3 years; and
       (6) a report on current year activity and previous year activity, if
       applicable.

   •   The contract types that were excluded from the recovery audit review
       and an explanation for their exclusion.

   •   A table detailing the recovery audit effort, including the amount
       subject to review, the actual amount reviewed and reported on, the
       amount identified for recovery, the percentage of amount identified
       over the actual amount reviewed, the amount recovered, and the
       amount recovered in previous years.

       OMB Circular A-123 revision, Management’s Responsibility for Internal
Control, dated December 2004, effective FY 2006, requires agencies to
annually submit an overall statement of assurance as to the adequacy and
effectiveness of internal controls within the agency, and a statement of


                                      -3-
assurance over the effectiveness of the internal controls over financial
reporting. Agencies are to document the internal controls over financial
reporting in hard copy or electronic forms and include documentation of
tests of internal controls, internal control deficiencies, and suggestions for
improvement.

Department of Justice Guidance

      In March 2006, the Department of Justice’s (DOJ) Justice Management
Division (JMD) issued guidance on recovery audit programs and the IPIA in
Financial Management Policies and Procedures Bulletin 06-11
(Bulletin 06-11). This department-wide bulletin supports guidance set forth
in the IPIA, the NDAA, and OMB circulars and memoranda. Bulletin 06-11
requires each component to "review all programs and activities
administered, and identify those susceptible to significant improper
payments. This includes payments from federal awards made by recipients
and subrecipients subject to the Single Audit Act Amendments of 1996."
Further, Bulletin 06-11 requires that "each component must ensure that its
risk assessment, required under the IPIA, contain, at a minimum: (1) the
results from the most recent financial statement audit, including any
material weaknesses or reportable conditions; (2) the effect of those
weaknesses or conditions on its risk of making improper payments; and
(3) a description of the corrective actions taken to address those
weaknesses or conditions.”

      Bulletin 06-11 also requires that “the risk assessment should also
include a review of systems, procedures, policies, and practices, including
oversight, that help prevent or correct improper payments. It also can
include, but is not limited to, independent audit reports, internal control
reviews, Inspector General reviews, results of recovery audit activities, other
internal reviews, and the results of the internal audit program or any other
mechanism implemented to analyze susceptible risk."

       JMD combines all of the components’ annual IPIA reports and
summarizes them in DOJ’s annual PAR. The annual IPIA report is required
to include:

   •   a description of the risk assessment performed and a list of
       risk-susceptible programs;

   •   the statistical sampling process conducted to estimate the improper
       payment rate for each program identified, if applicable;




                                      -4-
  •   the corrective action plan for reducing improper payments, and the
      corrective action plan for grant-making agencies with risk-susceptible
      grant programs, including a discussion of accomplishments in the area
      of funds stewardship past the primary recipient;

  •   estimates of improper payments in future years;

  •   a description of the recovery audit program, including a table detailing
      the recovery audit effort, the amount subject to review, the actual
      amount reviewed and reported on, the amounts identified for
      recovery, the percentage of amounts identified over the actual amount
      reviewed, the amount recovered, and the amount recovered in
      previous years;

  •   the steps planned and taken to ensure management is held
      accountable for reducing improper payments;

  •   a description of whether the information system and infrastructure are
      adequate to reduce improper payments; and if not, a description of
      the resources requested to improve its information systems and
      infrastructure;

  •   any statutory or regulatory barriers that may limit the corrective
      actions in reducing improper payments; and

  •   additional comments on overall efforts, specific programs, best
      practices, or common challenges identified. 5

      Bulletin 06-11 further requires each component to carry out a
cost-effective recovery audit program to prevent, identify, and recover
improper payments. Each recovery audit program must include a
comprehensive review of prior payments to determine whether they were
improper. Further, the recovery audit program must:

  •   look for several types of improper payments, including: (1) duplicate
      payments, (2) payments made that were not in accordance with an
      applicable contract, (3) payments made for incorrect amounts,
      (4) payments for which allowable discounts were not taken, and
      (5) payments made for goods not received or services not rendered;

  •   encompass, at a minimum, all payments made from FY 2003 forward;
      and

      5
          The Annual Improper Payments Information Act Report is detailed in Appendix V.



                                          -5-
   •   include the component’s grant programs, if applicable.

      Recovery audits may be performed by component employees, by other
departments or agencies of the federal government acting on behalf of the
component, or by contractors performing recovery audit services under
contracts awarded by the agency. Each component is required to develop
and implement written policies and procedures for its recovery audit
program, in accordance with the framework set forth in Bulletin 06-11.

      In May 2003, the Director, JMD Finance Staff, implemented a
department-wide recovery audit contract, which all components are required
to use unless a waiver is granted. Requests for waivers must be forwarded
to the Director and include a complete description of the proposed alternate
recovery audit program and its cost.

       Bulletin 06-11 further requires each component to complete a
quarterly report on recovery audit activities. The report is due within
5 working days following the end of each quarter and should include the type
and total amount of improper payments identified, the total amount
recovered, and the total amount outstanding. Components are to report
separate totals for amounts attributable to internal agency activities and also
those attributable to recovery audit contractors. Additionally, the report
should include the identified causes for improper payments, as well as the
corrective actions taken, business processes changed, and internal controls
instituted and strengthened to prevent future occurrences. Finally,
descriptions of the recovery audit program and planned recovery audit
activities for the following quarter are to be included within the quarterly
report.

Prior Audit

      In April 2005, the Office of the Inspector General (OIG) issued an
audit report on the Department of Justice Process for Identifying,
Preventing, and Recovering Improper and Erroneous Payments, Audit Report
Number 05-19. The scope of this audit included four DOJ components:
(1) the Federal Bureau of Prisons (BOP), (2) Office of Justice Programs
(OJP), (3) Federal Bureau of Investigation (FBI), and (4) United States
Marshals Service (USMS). At each of the components, the auditors reviewed
the reports submitted in accordance with the IPIA and assessed each
component’s efforts for preventing, identifying, and quantifying improper
payments. Additionally, the auditors reviewed the recovery audit efforts at
each of the selected components. The audit revealed that:



                                     -6-
  •   The USMS and OJP risk assessments were not adequate to completely
      measure the risk of improper payments for all programs the
      components administered.

  •   The BOP, OJP, and USMS IPIA reports did not contain a complete
      description of the risk assessment performed.

  •   Weaknesses were identified in certain FBI and USMS policies and
      procedures used to prevent improper payments.

  •   None of the risk assessments included an analysis or consideration of
      any material weaknesses, reportable conditions, or non-compliance
      matters resulting from the components’ annual financial statement
      audits.

  •   The FBI, OJP, and USMS did not have processes in place to determine
      the full extent of improper payments.

  •   The BOP and OJP initiated recovery audit programs but had not
      implemented written policies and procedures. Additionally, the FBI
      and USMS had not initiated any type of formalized recovery audit
      program.

  •   JMD did not have an official reporting mechanism in place to monitor
      each component’s recovery audit activities. Additionally, JMD’s
      recovery audit guidance was not adequate to ensure consistency
      among the components related to progress in implementing and
      maintaining a recovery audit program.

      The OIG provided the recommendations to these conditions. At the
time of this audit, all 22 recommendations had been agreed upon, 13 have
been fully implemented, and 9 are in the process of being implemented.

Audit Approach

      This audit was requested by JMD. Based on the magnitude of the
government-wide improper payments identified in the February 2006 OMB
report and the findings identified in the April 2005 OIG audit report, we
conducted a follow-up audit, which included the: (1) Offices, Boards and




                                    -7-
Divisions (OBDs); 6 (2) Federal Prison Industries (FPI); (3) Drug Enforcement
Administration (DEA); and (4) Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF). The purpose of the audit was to assess the selected
component’s processes for preventing, identifying, and recovering improper
and erroneous payments. Specifically, the objectives of the audit were to
determine whether the components established:

   •   policies and procedures for preventing improper and erroneous
       payments,

   •   policies and procedures for identifying improper and erroneous
       payments, and

   •   methods to recover improper and erroneous payments.

       During this audit, we reviewed current laws, regulations, guidance,
and policies to obtain an understanding of the requirements with which
federal agencies must comply. We also conducted interviews with
component management; reviewed policies and procedures related to
preventing, identifying, and recovering improper payments; and analyzed
reports submitted to JMD to determine whether the components complied
with applicable laws and regulations. Specifically, we reviewed the FY 2005
IPIA reports submitted by the components to JMD. The information in these
reports was analyzed in conjunction with Bulletin 06-11, dated March 2006.
We used this approach in order to identify any necessary enhancements for
full compliance in the FY 2006 IPIA reporting period.




       6
          In order to assess the OBDs, we selected a sample of six sub-components of the
OBDs to review and conclude upon compliance with the IPIA and the NDAA. The
sub-components selected included the: (1) Regime Crimes Liaison Office (RCLO), (2) Office
on Violence Against Women (OVW), (3) Civil Division (CIV), (4) Office of Community
Oriented Policing Services (COPS), (5) Executive Office for Immigration Review (EOIR), and
(6) Wireless Management Office (WMO). The methodology for the selection of the OBD
subcomponents is detailed in Appendix I.



                                          -8-
                     FINDINGS AND RECOMMENDATIONS

I.       PREVENTING IMPROPER AND ERRONEOUS PAYMENTS

         Our audit determined that the risk assessments conducted by the
         OBDs, FPI, and ATF did not include an analysis of the results from the
         most recent financial statement audit. We further determined that the
         OBDs’ risk assessment did not include a review of federal award
         payments made by the recipients and subrecipients, and ATF did not
         conduct a risk assessment or program inventory for FY 2005. In
         addition, we recommended that JMD evaluate the recent changes to
         OMB Circular A-123, Appendix C and determine whether changes need
         to be made to Bulletin 06-11. We also recommended Bulletin 06-11
         be updated to include component disclosure of: (1) an unqualified,
         qualified, or no-assurance opinion related to the adequacy and
         effectiveness of internal controls and the effectiveness of the internal
         controls over financial reporting, following the requirements of OMB
         Circular A-123 revision; (2) the reason for the opinion and its effect on
         the component's risk of making improper payments; and (3) any
         corrective actions being taken to address the opinion and the
         component's risk.

       Many improper payments are caused by a lack of or an inadequate
system of internal control. According to information obtained from the Chief
Financial Officers Council and the President’s Council on Integrity and
Efficiency, the causes for improper payments can be broken down into the
following three broad categories:

     •   A weak or incomplete program control environment: this includes the
         systems, procedures, and practices, including rigorous oversight, that
         can help prevent or correct improper payments.

     •   Risks inherent in the regulatory and policy structure: these define and
         support each federal program, and may stem directly from policy
         choices and mandates.

     •   A lack of government-wide consistency, coordination, and
         standardization: this includes a lack of alignment of program eligibility
         policies, sharing of data, consistency in measuring improper payments,
         and dissemination of best practices.

      The IPIA requires a risk assessment of all programs to identify those
susceptible to significant improper payments. Guidance provided by OMB in
accordance with the IPIA requires each agency to conduct a full program


                                        -9-
inventory and perform a risk assessment of each program in the program
inventory.

      In March 2006, JMD issued Bulletin 06-11, which required each
component to include the following within its risk assessment: (1) the
results from the most recent financial statement audit, including any
material weaknesses or reportable conditions; (2) the effect of any
weaknesses or conditions as it pertains to the risk of making improper
payments; and (3) a description of the corrective actions taken to address
any weaknesses or conditions.

      We reviewed the FY 2005 risk assessments conducted by the OBDs,
FPI, DEA, and ATF, and found that:

  •   The assessments conducted by the OBDs, FPI, and ATF did not include
      an analysis or consideration of the overall financial statement audit.
      Additionally, the OBDs, FPI, and ATF did not include an analysis or
      consideration of the material weaknesses or reportable conditions
      resulting from the component’s annual financial statement audit.
      Specifically, the OBDs and ATF had material weaknesses or reportable
      conditions in the components’ FY 2005 financial statement audits but
      did not address them in their risk assessments. The FPI did not have
      any issues noted within its FY 2005 financial statement audit.

  •   The assessment conducted by the DEA did include an analysis of its
      overall financial statement audit. The DEA did not have any issues
      noted within its FY 2005 financial statement audit.

       In our judgment, certain internal control deficiencies could increase
the risk of making improper payments. Thus, a thorough risk assessment
should include a review of the financial statement audit opinion, any
reportable conditions or material weaknesses noted by the independent
auditors, and an analysis of whether those weaknesses or conditions could
potentially affect the component’s risk of making improper payments as
required by Bulletin 06-11. In our judgment, unqualified audit opinions
should also be included because they can further support a component’s risk
assessment concluding that the component is not at significant risk of
making improper payments. When we discussed this issue with
management at the OBDs, FPI, and ATF, they generally concurred with our
assessment.

      OMB Circular A-123 revision requires annual assurance statements, a
summary of material weaknesses and non-conformances, and a summary of
the corrective action plans to be included within the PAR. The two required


                                   - 10 -
assurances include a statement on the overall adequacy and effectiveness of
internal controls within the agency and the effectiveness of the internal
controls over financial reporting. Documentation supporting the assurances
should be maintained, including the assessment process, testing of controls,
deficiencies identified, and suggestions for improvement.

      During the period covered by our audit, the requirements of OMB
Circular A-123 revision related to annual assurance statements in the PAR
were not yet enacted. Further, none of the components included in our
audit individually fall under the requirements of OMB Circular A-123 revision
because it relates to DOJ as a whole. However, in order for DOJ to provide
the assurances in its PAR, according to JMD management, individual
components were required to provide assurances to them as of June 2006.

       In our judgment, a thorough risk assessment for the IPIA should
include the OMB Circular A-123 revision assurance opinion, the reason for
the opinion, and an analysis of whether the reasons for the opinion could
potentially affect the component’s risk of making improper payments. As a
result, we are recommending that each component include this information
in its risk assessments. Management at the OBDs, FPI, DEA, and ATF, as
well as JMD, generally concurred with our recommendation.

      In addition to our findings related to the annual financial statement
audit and OMB Circular A-123 revision assurance results, we noted the
conditions described below during our review of policies and procedures used
by management at the OBDs, FPI, DEA, and ATF to prevent improper
payments, and in the risk assessment prepared by each component.

      It should be noted that OMB Circular A-123, Appendix C states that
each agency with improper payment estimates less than $10 million are only
required to report the total improper payment estimate in its annual PAR to
OMB. Agencies are no longer required to include: (1) information on the
risk assessment conducted, (2) a description of management accountability
for reducing improper payments, and (3) a description on whether the
information system and infrastructure are adequate to reduce improper
payments. 7 Those requirements apply to each DOJ program, rather than to
the individual components. Moreover, because the improper payment
estimate for each DOJ program is less than $10 million, in our judgment,
DOJ is not required to include this information in its PAR for FY 2006.
Nonetheless, Bulletin 06-11 still required the individual components to
include the information in their IPIA reports. We recommend JMD evaluate

       7
          OMB Circular A-136 - Revised July 2006, requires additional IPIA and recovery
audit information to be included in the annual PAR.



                                          - 11 -
the recent changes to OMB Circular A-123, Appendix C and determine
whether changes need to be made to Bulletin 06-11.

       As a result, throughout this report, we disclosed our findings related to
Bulletin 06-11 requirements. However, we did not offer any
recommendations related to the descriptions on: (1) the risk assessment
conducted for the OBDs and ATF; (2) management accountability for
reducing improper payments for the FPI, DEA, and ATF; and (3) whether the
information system and infrastructure are adequate to reduce improper
payments for the DEA.

Offices, Boards and Divisions

Preventive Measures

       JMD manages the recovery audit program for the OBDs. JMD also
established a written policy for the OBDs describing the identification,
prevention, and recovery of improper payments in Financial Management
Policies and Procedures Bulletin 05-03 (Bulletin 05-03), November 2004.
Bulletin 05-03 explains procedures for preventing improper payments
including controls built into the OBDs’ financial management system. The
built-in controls alert the user when a potential duplicate invoice is entered
into the system.

       Additionally, according to JMD management, the OBDs have the
internal control structure necessary to prevent improper payments. 8 This
structure includes written policies and procedures, separation of duties, and
certification by a supervisor of no conflicting duties before a user is granted
access to enter obligation data into the financial management system.

      Finally, the OBDs’ financial management system will not permit
payments that exceed the allowance amount to be recorded. However, the
financial management system does provide "tolerance limits" that allow
expenditures to be processed that exceed the obligated amount. The
“tolerance limits” are generally set at the lower of $100 or 10 percent of the
obligation.

Risk Assessment

      For FY 2005, JMD submitted the IPIA report for the OBDs in
accordance with regulations. We reviewed the OBDs’ full program inventory

       8
         See the Statement on Internal Controls, at the back of this report, for details of
our review of the OBDs’ controls, policies, and procedures.



                                           - 12 -
and risk assessment. The risk assessment included four programs that were
considered at risk of making improper payments. 9 However, it did not
include how those programs were determined to be at risk.

       According to JMD management, the risk assessments included a
review of the: (1) mock audit risk assessments, which identify the OBD
programs at high risk; 10 (2) high-risk areas, including foreign payments;
(3) the level of dollars involved; and (4) the recovery audit contractor’s
analysis to determine whether any program reached the criteria for
significant risk. Therefore, according to JMD, the risk assessment for the
OBDs was more comprehensive than what was described in the IPIA report.
However, a description of this four-step risk assessment was not included in
the IPIA. Bulletin 06-11 states, "the Annual IPIA Report is to include a
description of the component's risk assessment subsequent to compiling a
full program inventory,” and the component is to “. . . maintain
documentation of the risk assessment and the results." Therefore, according
to JMD’s own criteria, the risk assessment methodology JMD described to the
OIG during this audit should have been included in the IPIA report.

       Bulletin 06-11 states that, "components are required to review all
programs and activities administered, and identify those susceptible to
significant improper payments. This includes payments from federal awards
made by recipients and subrecipients subject to the Single Audit Act
Amendments of 1996." JMD management stated that they were unsure
whether all grant programs were included in JMD’s risk assessment of the
OBDs. Based on our review of the FY 2005 IPIA report submitted by JMD for
the OBDs, we found that JMD did not include a review of all payments from
COPS and OVW federal awards in the risk assessment.

      We discussed this issue with JMD management and they concurred
with our finding that the risk assessment for the OBDs conducted for the
FY 2005 IPIA report is missing an assessment of payments from federal
awards made by recipients and subrecipients. JMD management agreed to
conduct an assessment of all payments from federal awards made by
recipients and subrecipients in the OBDs’ future risk assessments.

      9
         The OBDs’ risk assessment for FY 2005 included the: (1) Office on Violence
Against Women, (2) Radiation Exposure Compensation, (3) Regime Crimes Liaison Office,
and (4) salaries and other outlays.
      10
           Mock audits, administered by the JMD Quality Control and Compliance Group, are
audit simulations that aim to reduce audit findings, minimize organizational weaknesses,
and strengthen financial management and practices of the OBDs, Working Capital Fund, and
the United States Attorneys’ district offices. Each mock audit analyzes and tests a
component’s financial processes and assigns a risk ranking to the component based upon
the results.



                                         - 13 -
Management Accountability

       JMD and the OBDs provided various documents demonstrating that
management is held accountable for reducing improper payments.
Management at JMD and the OBDs provided Performance Work Plans, which
included a discussion on accountability for taxpayer dollars, specifically
effective management of financial resources and unqualified financial audits.
Additionally, the results from the mock audit can identify improper
payments. If an improper payment was identified, it would be reflected on
the component’s scorecard, which is reflected in management performance
reviews and evaluations.

Information System and Infrastructure

      We found that the OBDs have the infrastructure and information
system necessary to reduce improper payments within the financial
management system. We verified that the financial management system
prompts the user if a potential improper payment is entered into the system.
Additionally, the OBDs can produce the financial management system
duplicate payment report, which identifies potential duplicates. These
processes are also described in Bulletin 05-03.

Federal Prison Industries

Preventive Measures

       According to FPI management, the FPI has the internal control
structure in place to prevent improper payments. 11 This structure includes
existing written policies and procedures, segregating duties, centralizing
payments, pre-auditing disbursement vouchers, utilizing the original invoice,
tying the receipt to the line item received, and matching the purchase order
to the original invoice. In addition, controls are built into the FPI’s financial
management system, which alerts the user when a potential duplicate
invoice is entered into the system. The FPI has a Program Review Division,
which conducts internal audits on a rotating basis at FPI institutions, every
3 years. These audits include transaction testing.




       11
          See the Statement on Internal Controls, at the back of this report, for details of
our review of the FPI’s controls, policies, and procedures.



                                           - 14 -
Risk Assessment

      In October 2005, the FPI submitted a report to JMD in accordance with
the IPIA, which included a complete program inventory and a description of
the FPI’s complete risk assessment. In the report, the FPI was defined as a
single program, the purpose of which is to employ inmates.

Management Accountability

      Bulletin 06-11 requires the annual IPIA reports to include a description
of how managers are held accountable for reducing improper payments.
The FPI’s FY 2005 IPIA report states that the "FPI's risk assessment has
determined that internal controls governing the payment cycle are not a
high-risk area. Therefore, no action is being taken in this regard at this
time. If the recovery audit results should justify such action, then the FPI
will amend it at that time." However, according to the FPI, managers are
given responsibility and held accountable for reducing improper payments.

       The FPI Program Statement on Accounts Payable, Accountable Officer
Liability states, "An accountable officer may be held personally liable and
subject to disciplinary actions for the loss or improper payment of funds for
which they are accountable." The FPI also provided a draft policy on the
IPIA, which states that the FPI will comply with the IPIA and ". . . provide
other information on management accountability." Finally, the FPI Program
Statement on Employee Code of Conduct states, "Employees will conform to
procurement integrity regulations." We noted that management
accountability described in the FPI’s IPIA report was not reflective of its
actual policies related to management accountability for reducing improper
payments at the FPI.

Information System and Infrastructure

       We found that the FPI has a fully integrated accounting system which
provides the infrastructure and information system necessary to reduce
improper payments. We verified that the accounting system prompts the
user if a potential improper payment is entered into the system. Then, the
user will determine whether the payment is in fact improper.




                                    - 15 -
Drug Enforcement Administration

Preventive Measures

      According to DEA management, the DEA has an internal control
structure in place to prevent improper payments. 12 This structure includes:

   •   Using standardized stamps to verify receipt of goods or services; to
       approve, certify, and reject duplicates; and to date the arrival of an
       invoice in the designated office.

   •   Paying duplicate invoices only if the approving officer verifies that the
       original invoice was not paid and stamping the invoice, “Duplicate
       Original Approved as Proper for Payment.”

   •   Perforating paid invoices to prevent duplicate payments.

   •   Approving and certifying officers perform a three-way match among
       the obligating document, receiving document, and the invoice prior to
       payment. This is to assure that the goods or services were procured
       by an authorized individual; the goods or services were received; and
       the payment was legal, proper, and correct.

   •   Holding approving officers administratively liable for an incorrect,
       improper, or illegal payment.

   •   Certifying officers are financially liable for an incorrect, improper, or
       illegal payment.

   •   Reviewing the payment process annually through the Office of
       Inspections’ self-inspection program.

   •   Segregating key functions to ensure effective checks and balances to
       reduce the risk of improper, wasteful, or wrongful acts.

      We verified that internal controls have been built into the DEA’s
financial management system. These controls include access security
controls and a financial management system that will prompt "Possible
Duplicate Payment" if a user enters an invoice with the same invoice
number, date, and amount as a previously accepted invoice. DEA
management explained that the "Possible Duplicate Payment" prompt will

       12
          See the Statement on Internal Controls, at the back of this report, for details of
our review of the DEA’s controls, policies, and procedures.



                                           - 16 -
not appear for a duplicate payment if the vendor payment document has
been “warehoused,” meaning payments are scheduled for payment by the
Department of the Treasury (Treasury) in conformity with the time frame of
the Prompt Payment Act or within the time frame negotiated on the
obligation. However, an Erroneous Payment database was established to
capture an improper payment that was “warehoused” the following day for
the reason described above.

Risk Assessment

      In October 2005, the DEA submitted a report to JMD in accordance
with the IPIA, which included a complete program inventory and a complete
description of the DEA’s risk assessment. The report defined the DEA’s
programs by payment types. In the risk assessment, the DEA identified the
preventive and detective controls for each program in the full program
inventory. Additionally, the report described weaknesses within each
program and identified areas where improper payments could occur, which
assisted the DEA’s recovery audit program. The program inventory and risk
assessment conducted by the DEA demonstrates a thorough and
comprehensive review.

Management Accountability

       The DEA provided various documents that hold management
accountable for reducing improper payments. The DEA maintains scorecards
for each division, regarding electronic payments to vendors, non-credit card
invoices paid on time, and interest penalties paid on invoices.
Department-wide scorecards are maintained to inform employees on how
the DEA is performing. The DEA provided Performance Work Plans that
explain accountability for taxpayer value, effective management of financial
resources, and unqualified audits. Finally, the DEA provided documentation
on Approving and Certifying Officers. Approving Officers may be subject to
administrative discipline if they approve an incorrect, illegal, or improper
payment. Certifying Officers are personally and financially accountable for
the amount of any incorrect, illegal, or improper payment resulting from
false or misleading certification, as well as for any payment prohibited by
law that does not represent a legal obligation under the appropriation or
fund involved. Certifying Officers may be required to reimburse the federal
government for the entire amount of any incorrect, illegal, or improper
payment resulting from their certification. In our opinion, the DEA’s
management accountability for reducing improper payments ensures that
the IPIA and the NDAA are addressed within the component, which is
particularly important during times when budgets are tight.



                                   - 17 -
      Bulletin 06-11 required the annual IPIA reports to include a description
of how managers are held accountable for reducing improper payments. In
reviewing the DEA’s FY 2005 IPIA report, we noted that the DEA stated “not
applicable” for Item 6, which asks for a description of the steps taken or
planned to ensure managers are held accountable for reducing improper
payments. However, as described above, managers are given responsibility
and held accountable for reducing improper payments.

Information System and Infrastructure

      Bulletin 06-11 required the annual IPIA reports to include within
Item 7, a description as to whether the component has the information
system and other infrastructure it needs to reduce improper payments to the
levels the component has targeted. If the component does not have the
information system or infrastructure necessary to reduce improper
payments, the component should include a description of the resources the
component requested in its budget submission to Congress to obtain the
necessary information system and infrastructure. In reviewing the DEA’s
FY 2005 IPIA report that was submitted to JMD, we found that the DEA
stated “not applicable” for Item 7. However, we found that the DEA has the
information system and infrastructure necessary to reduce improper
payments through its financial management system.

Bureau of Alcohol, Tobacco, Firearms and Explosives

Preventive Measures

      According to ATF management, ATF has the internal control structure
and three processes in place to prevent improper payments. 13 The first
control, which we verified, is a prompt that appears to the user when a
duplicate invoice is entered into the system. Second, prior to authorizing a
payment, ATF performs a draft referencing process by examining the
obligating documents, receiving documents, and the invoice. The draft
referencing process compares the information on all of these documents and
ensures the accuracy on each. This process is performed both when funds
have and have not been obligated. The referencing process can prevent
improper payments because when funds have been obligated, the payment
should reference the vendor invoice; when funds have not been obligated,
the payment should reference the purchase order. Finally, ATF provided a
draft policy for transactions greater than $2,500, which requires system
approval prior to being processed and paid by the Certifying Officer. The

       13
          See the Statement on Internal Controls, at the back of this report, for details of
our review of ATF’s controls, policies, and procedures.



                                           - 18 -
Certifying Officer reviews documentation prior to certifying an invoice for
payment.

Risk Assessment

      For FY 2005, ATF submitted a report to JMD as required by the IPIA.
The program inventory and risk assessment completed by ATF stated, “ATF
does not have any significant risk programs in which improper payments
exceed both 2.5 percent of program payments and $10 million.” However,
according to ATF management, a risk assessment was not performed in
FY 2005. Instead, we determined that ATF management relied on the
FY 2004 risk assessment and data on improper payments identified and
recovered in 2005 to make the concluding statement in the FY 2005 IPIA
report.

       Bulletin 06-11 requires each component to review all programs and
activities administered and identify those susceptible to significant risk and
to "describe the risk assessment performed, subsequent to compiling the full
program inventory." A full program inventory and risk assessment ensures
that all payments and controls are reviewed for weaknesses and strengths in
preventing and identifying improper payments and the reasons they occur.
When we discussed the lack of a risk assessment conducted for the FY 2005
report with ATF managers, they stated that because the FY 2004 IPIA report
reported no significant risk programs, a risk assessment for FY 2005 was not
necessary. However, ATF needs to conduct a risk assessment of its full
program inventory each year until the level of risk is known and the baseline
estimates, if applicable, are established as required by Bulletin 06-11. ATF
should maintain documentation of the risk assessment. When ATF’s
programs are deemed not risk susceptible and documentation is maintained,
ATF can conduct a risk assessment every 3 years.

     We discussed with ATF management this finding related to conducting
a complete risk assessment of all programs within the full program inventory
and maintaining documentation of the risk assessment. ATF management
concurred and agreed to conduct a complete risk assessment and to
maintain documentation of the risk assessment performed.

Management Accountability

       ATF management described Certifying Officers, Contracting Officer
Technical Representatives (COTRs), and post-contract responsibilities that
ensure management's responsibility for reducing improper payments.
Certifying Officers are held accountable for any improper payments they
certify. Additionally, Certifying Officers are also responsible for reviewing


                                     - 19 -
the appropriate documents prior to certifying an invoice for payment. ATF
explained and provided documentation on COTRs’ responsibilities, which
include: (1) reviewing invoices to ensure ATF is not receiving duplicate
invoices, (2) comparing invoices to the terms of the contract, (3) reviewing
the performance accomplished on the contract, (4) analyzing the spend rate
based on the work completed on the contract, and (5) handling any other
contract issues. According to Acquisition Management Policy No. 007,
Accelerated Closeout Procedures for Simplified Acquisition Procedures
Contract Files, post-contract responsibilities include ensuring all goods and
services were received, reviewing terms of the contract, verifying that the
final invoice has been received and approved for payment, and determining
that multiple payments were not made. In our judgment, these processes
assist in ensuring no duplicate, under- or over-payments occur.

       Bulletin 06-11 requires the annual IPIA report to include a description
of how managers are held accountable for reducing improper payments. In
reviewing the FY 2005 IPIA report, we noted that ATF stated “not applicable”
for Item 6, which asks for a description of the steps taken or planned to
ensure managers are held accountable for reducing improper payments.
However, ATF designates responsibilities for reducing improper payments
through Certifying Officers, COTRs, and post-contract responsibilities.

Information System and Infrastructure

      We determined that ATF has the infrastructure and information system
necessary to reduce improper payments. We verified that the financial
management system prompts the user if a potential improper payment is
entered into the system. Then, the user will determine whether the
payment is in fact improper.

Recommendations:

      We recommend that JMD:

1.    Ensure that risk assessments for each component are required to
      include: (1) an assurance statement of an unqualified, qualified, or
      no-assurance opinion, following the requirements of OMB
      Circular A-123 revision, Management’s Responsibility for Internal
      Control, for DOJ as a whole; (2) the reason for the opinion and its
      effect on the component's risk of making improper payments; and
      (3) any corrective actions being taken to address the opinion and the
      component's risk.




                                    - 20 -
2.   Evaluate the recent changes to OMB Circular A-123, Appendix C and
     determine whether changes need to be made to Bulletin 06-11.

     We recommend that for the OBDs, JMD:

3.   Ensure future risk assessments include: (1) the results from the most
     recent financial statement audit, including any material weaknesses or
     reportable conditions; (2) the effect of those weaknesses or conditions
     on its risk of making improper payments; and (3) a description of the
     corrective action taken to address those weaknesses or conditions as
     required by Bulletin 06-11.

4.   Ensure future risk assessments include: (1) an assurance statement
     of an unqualified, qualified, or no-assurance opinion; (2) the reason
     for the opinion and its effect on the component's risk of making
     improper payments; and (3) any corrective actions being taken to
     address the opinion and the component's risk.

5.   Ensure future risk assessments include an assessment of federal
     award payments made by the recipients and subrecipients as required
     by Bulletin 06-11.

     We recommend that the FPI:

6.   Ensure future risk assessments include: (1) the results from the most
     recent financial statement audit, including any material weaknesses or
     reportable conditions; (2) the effect of those weaknesses or conditions
     on its risk of making improper payments; and (3) a description of the
     corrective action taken to address those weaknesses or conditions as
     required by Bulletin 06-11.

7.   Ensure future risk assessments include: (1) an assurance statement
     of an unqualified, qualified, or no-assurance opinion; (2) the reason
     for the opinion and its effect on the component's risk of making
     improper payments; and (3) any corrective actions being taken to
     address the opinion and the component's risk.

     We recommend that the DEA:

8.   Ensure future risk assessments include: (1) an assurance statement
     of an unqualified, qualified, or no-assurance opinion; (2) the reason
     for the opinion and its effect on the component's risk of making
     improper payments; and (3) any corrective actions being taken to
     address the opinion and the component's risk.


                                  - 21 -
      We recommend that ATF:

9.    Ensure future risk assessments include: (1) the results from the most
      recent financial statement audit, including any material weaknesses or
      reportable conditions; (2) the effect of those weaknesses or conditions
      on its risk of making improper payments; and (3) a description of the
      corrective action taken to address those weaknesses or conditions as
      required by Bulletin 06-11.

10.   Ensure future risk assessments include: (1) an assurance statement
      of an unqualified, qualified, or no-assurance opinion; (2) the reason
      for the opinion and its effect on the component's risk of making
      improper payments; and (3) any corrective actions being taken to
      address the opinion and the component's risk.

11.   Conduct a complete program inventory and risk assessment for each
      program, and maintain documentation as required by Bulletin 06-11.




                                   - 22 -
II.   IDENTIFYING AND RECOVERING IMPROPER AND ERRONEOUS
      PAYMENTS

      In general, the agencies complied with OMB and DOJ requirements for
      identifying and recovering improper payments. However, our audit
      determined that the recovery audit programs at the OBDs, FPI, and
      ATF did not consider a review of at least one of the categories of
      payments required by Bulletin 06-11. Further, we found that identified
      and recovered improper payment amounts reported to JMD may be
      understated for the OBDs, due to breaks in communication within the
      component and for ATF because it is not tracking improper payments
      separately from other debts. We also noted agencies that needed
      improvement in policy implementation and in compliance with existing
      requirements. Finally, we found that JMD could improve Bulletin
      06-11 by establishing time limits for confirming or refuting any
      improper payments identified by the recovery audit contractor.

      In February 2006, OMB issued Improving the Accuracy and Integrity of
Federal Payments, which identified approximately $888 million in improper
payments made by federal agencies in FY 2005. Additionally, the report
stated, “Of the $888 million in improper vendor payments, agencies
recovered $656 million. Approximately, $205 million is pending resolution,
with the remainder either still in dispute or deemed unrecoverable. This
demonstrates an improper payment recovery rate of 74 percent.” DOJ was
included in this report, which compiled information from the agencies’ PARs.
According to DOJ’s FY 2005 PAR, DOJ identified improper payments totaling
$1,044,320 and $765,086 (73 percent) had been recovered.

       However, according to testimony by David Walker, the Comptroller
General of the United States, “Significant challenges remain to effectively
achieve the goals of the IPIA . . . .” 14 Walker also reported that the
Government Accountability Office’s review of FY 2005 PARs, “. . . noted that
some agencies still have not instituted a systematic method of reviewing all
programs and activities, have not identified all programs susceptible to
significant improper payments, and have not annually estimated improper
payments for their high-risk programs.” Specific agencies were not
identified in his testimony.




      14
         Government Accountability Office, Fiscal Year 2005 U.S. Government Financial
Statements, Sustained Improvement in Federal Financial Management Is Crucial to
Addressing Our Nation’s Financial Condition and Long-term Fiscal Imbalance, Statement of
David M. Walker, Comptroller General of the United States, March 2006.



                                         - 23 -
      Identifying improper payments is an essential step in assessing the
need for and types of corrective action required to manage improper
payments and help ensure efficient and effective program operations. A
recovery audit program includes a comprehensive review of prior payments
to determine whether they were improper. A recovery audit program also
looks for several types of improper payments, including:

   •   duplicate payments;

   •   errors on invoices or financing requests;

   •   failure to reduce payments by applicable sales discounts, cash
       discounts, rebates, or other allowances;

   •   payments for items not received;

   •   mathematical or other errors in determining payment amounts and
       executing payments; and

   •   the failure to obtain credit for returned merchandise.

      Not only is a recovery audit program an important tool for identifying
improper payments already made, the results of the program can also be
used to address the flaws in an agency's internal controls.

       Recovering identified improper payments is the final aspect of a
recovery audit program. Establishing a written policy for the component’s
recovery audit program ensures that the goal of the program – to recover
the improper payments made by the component – and the procedures for
accomplishing the goal are available to all employees. JMD recognized the
importance of a written policy and required each component to establish a
written policy for its recovery audit program, in accordance with
Bulletin 06-11.

      However, in reviewing Bulletin 06-11, we found that JMD did not
define time limits for confirming or refuting an improper payment identified
by the recovery audit contractor. In our opinion, the time limits for
confirming or providing documentation refuting the improper payment,
should be included in Bulletin 06-11. JMD managers concurred with our
finding and agreed to include time limits within Bulletin 06-11.

      During our audit, we reviewed laws and regulations applicable to
recovery audit activities. We reviewed each component’s IPIA report, which
included a description of its recovery audit program. In addition, we


                                     - 24 -
interviewed component officials and reviewed policies and procedures used
by the OBDs, FPI, DEA, and ATF to identify and recover improper payments.

      In addition to considering the time limits for components utilizing the
recovery audit contractor, we noted the following conditions during our
review of policies and procedures used to identify and recover improper
payments, and in the recovery audit program.

Offices, Boards and Divisions

       The OBDs are made up of 35 DOJ Offices, Boards and Divisions. One
of the 35 subcomponents, the Executive Office for United States Attorneys,
is the liaison between the DOJ and 93 United States Attorney Districts.
Appendix III provides a complete listing of the OBD subcomponents and
Appendix IV lists the United States Attorney Districts. 15 In order to assess
the OBDs’ compliance with the IPIA and the NDAA, we selected a sample of
six OBD subcomponents for review. 16 The subcomponents selected for our
review included the:

   •   Regime Crimes Liaison Office, 17

   •   Office on Violence Against Women,

   •   Civil Division,

   •   Office of Community Oriented Policing Services,

   •   Executive Office for Immigration Review, and

   •   Wireless Management Office.

Recovery Audit Program

      JMD’s Financial Management Policies and Procedures Bulletin 05-03
(Bulletin 05-03), November 2004, details the recovery audit program in
three parts for the OBDs.



       15
            The OIG is a subcomponent of the OBDs and is included in Appendix III.
       16
         The methodology for the selection of the OBD subcomponents is detailed in
Appendix I.
       17
           The RCLO is not listed in Appendix III, because the RCLO is a component of the
Office of the Deputy Attorney General.



                                           - 25 -
      The first part is provided internally by each subcomponent and
includes the following elements:

  •   Each subcomponent of the OBDs can produce a duplicate payment
      report using the financial management system, which identifies
      potential duplicate payments after the payments have been made.

  •   Any potential duplicate payment that appears on the report must be
      researched to determine if a duplicate payment was made.

  •   Once any improper payment is identified, it must be reported to JMD
      Finance Staff within 5 days using the Notification of Erroneous
      Payment form (Attachment 2 of Bulletin 05-03).

      When a subcomponent of the OBDs identifies and recovers an
improper payment, the subcomponent can keep 100 percent of the
recovered amount, rather than a percentage going to the recovery audit
contractor or to JMD.

       In the second part of the OBDs’ recovery audit program, JMD searches
for improper payments by generating the financial management system
duplicate payment reports and researching the results. If JMD identifies and
verifies a duplicate payment, the OBD subcomponent that made the
duplicate payment must pay JMD a fee of 14.46 percent of any recovered
amount for administering the OBDs’ recovery audit program. Therefore, the
subcomponent that made the improper payment only receives 85.54 percent
of the recovered amount.

       The third and primary aspect of the OBDs’ recovery audit program
consists of utilizing a private contractor to conduct recovery audits. This
effort began in May 2003, and payments made from FYs 1999 through 2004
were reviewed for improper payments as of April 2006. At the time of our
audit, the recovery audit contractor was reviewing fiscal year data 6 months
after each fiscal-year end.

       When the recovery audit contractor identifies an improper payment,
the subcomponent is notified. The subcomponent then has 15 days to
respond to the recovery audit contractor to confirm whether the payment is
in fact improper and whether the improper payment has already been
recovered. After the improper payment is recovered, the recovery audit
contractor receives 20 percent of the recovered amount for identifying the
improper payment, the Department of the Treasury receives 2 percent for
the OBDs using Treasury’s contract, and JMD receives 14.46 percent for
administering the OBDs’ recovery audit program. Therefore, the


                                   - 26 -
subcomponent that made the improper payments only receives the
remaining 63.54 percent of the recovered amount.

      As shown in Table 1, as of April 2006, the recovery audit contractor
stated that it had identified improper payments totaling $1,198,443 for all of
the OBDs and recovered $916,711 of this amount.

Table 1: IMPROPER PAYMENTS IDENTIFIED AND RECOVERED BY
         THE RECOVERY AUDIT CONTRACTOR
               IMPROPER   IMPROPER    IMPROPER
               PAYMENTS   PAYMENTS   PAYMENTS   PERCENTAGE
   NAME       IDENTIFIED RECOVERED  OUTSTANDING RECOVERED
 Recovery
 Audit        $1,198,443  $916,711    $281,732     76%
 Contractor
Source: Recovery audit contractor

      As shown in Table 2, the six OBD subcomponents included in our audit
stated that they identified an additional $215,212 in improper payments, of
which $203,896 was recovered.

Table 2: IMPROPER PAYMENTS IDENTIFIED AND RECOVERED BY
         SIX SUBCOMPONENTS OF THE OBDs
                IMPROPER  IMPROPER   IMPROPER
               PAYMENTS   PAYMENTS   PAYMENTS   PERCENTAGE
 COMPONENT     IDENTIFIED RECOVERED OUTSTANDING RECOVERED
 RCLO            $6,180     $6,180        $0      100%
 COPS             2,605      2,605          0     100%
 OVW              2,155      2,155          0     100%
 WMO                773        773          0     100%
 CIV            188,802    186,774      2,028      99%
 EOIR            14,696      5,408      9,288      37%
  TOTAL       $215,212    $203,896    $11,316      95%
Source: Management at the following OBD subcomponents: the RCLO, COPS, OVW, WMO,
CIV, and EOIR. The differences in the totals are due to rounding.

      As mentioned previously, Bulletin 05-03 requires each subcomponent
of the OBDs to submit the Notification of Erroneous Payment form
(Attachment 2 of Bulletin 05-03) to JMD Finance Staff informing JMD of any
improper payments identified and confirming that a receivable has been
established. However, we found that some subcomponents provided the
information but did not utilize the Notification of Erroneous Payment form.
Instead, they submitted the refund and supporting documentation directly to
JMD or used a Transmittal of Currency form to report improper payment


                                     - 27 -
recovery activities. Utilizing the Notification of Erroneous Payment form is
the only way to guarantee that appropriate JMD Finance Staff, who
administer the OBDs recovery audit program, receive the information. It is
essential for appropriate JMD personnel to receive the information so these
amounts can be included within the Quarterly Recovery Audit Reports and
within the annual IPIA reports. When subcomponents do not submit the
Notification of Erroneous Payment form, JMD cannot accurately report what
has been identified and recovered by the OBDs, which is combined with the
other DOJ components and reported in the annual PAR. Table 3 details how
each of the six subcomponents of the OBDs reported recovery audit
information to JMD.

Table 3: SUBCOMPONENTS OF THE OBDs UTILIZING THE
         NOTIFICATION OF ERRONEOUS PAYMENT FORM
         (ATTACHMENT 2 OF BULLETIN 05-03)
 COMPONENT       HOW RECOVERY AUDIT INFORMATION IS REPORTED TO JMD
 EOIR        Utilized Attachment 2
 WMO         Utilized Attachment 2
 COPS        Did not utilize Attachment 2, but submitted information on a
             Transmittal of Currency form
 OVW         Did not utilize Attachment 2, but submitted information on a
             Transmittal of Currency form
 CIV         Did not utilize Attachment 2, but the refund and support
             were forwarded to JMD
 RCLO        Did not utilize Attachment 2
Source: Management at the following OBD subcomponents: the RCLO, COPS, OVW, WMO,
CIV, and EOIR

      When we discussed this issue with JMD management, they concurred
with our finding and agreed to ensure that each of the OBD subcomponents
submit the Notification of Erroneous Payment form to ensure accurate
reporting.

      We also found that some of the six OBD subcomponents included in
our audit had additional procedures for identifying and recovering improper
payments. The additional procedures included reviews of the Open
Obligation Report and the Consolidated Obligation Report. The Open
Obligation Report shows whether the appropriate account payable was
properly liquidated; when an item has been paid for, but has not been
received; and when a transaction has not been paid. The Open Obligation
Report identifies these issues so they can be researched to determine if a
transaction was expected or occurred in error. The Consolidated Obligation
Report shows when a good or service was paid for, but the corresponding
obligation was not established and liquidated. This activity can identify


                                     - 28 -
potential errors which should be researched. Table 4 identifies the OBD
subcomponents that use additional procedures beyond the recovery audit
contractor and the financial management system duplicate payment report.

Table 4: SUBCOMPONENTS OF THE OBDs WITH ADDITIONAL
         RECOVERY AUDIT PROGRAMS
 COMPONENT                    RECOVERY AUDIT PROGRAM
 COPS        Monthly review of the Open Obligation Report
 WMO         Monthly review of the Open Obligation Report and the
             Consolidated Obligation Report
 OVW         Quarterly review of the Open Obligation Report and monthly
             review of the Consolidated Obligation Report
Source: Management at the following OBD subcomponents: COPS, WMO, and OVW

       COPS and OVW were two of the OBD subcomponents included in our
audit that manage grant programs. According to COPS and OVW,
monitoring of grantee expenditures occurs through: the Office of Justice
Programs, Office of the Comptroller, Desk Reviews; and Financial Monitoring
Site Visits. 18 However, Desk Reviews and Financial Monitoring Site Visits
are not conducted for all grants awarded by COPS and OVW and do not
include a review of all grant expenditures for the selected grants. In other
words, only a sample of expenditures for selected grants are reviewed and
verified for accuracy. According to Bulletin 06-11, "the recovery audit must
encompass . . . all payments made from FY 2003 forward . . . grant
payments are to be included in each component's recovery audit activity."
Therefore, the OBD’s recovery audit program is not in compliance with
Bulleting 06-11 because it does not include all grant payments.

      When we discussed this issue with JMD management, they concurred
with our finding and agreed to include grant payments within the scope of
the OBDs’ recovery audit program.

Federal Prison Industries

Recovery Audit Program

      Beginning in July 2004, the FPI began using a private contractor to
conduct recovery audits. Payments made in FY 2003 were reviewed and
vendor letters requesting reimbursement for any overpayments were sent
for FYs 2003 through 2005. As shown in Table 5, as of April 2006, the FPI
stated that a total of $43,182 in improper payments had been identified and
       18
        The Office of the Comptroller provides financial monitoring activities for both
COPS and OVW.



                                           - 29 -
confirmed from those fiscal years, and the FPI had recovered $12,355 of this
amount.

Table 5: IMPROPER PAYMENTS IDENTIFIED AND RECOVERED AT
         THE FPI
               IMPROPER  IMPROPER    IMPROPER
               PAYMENTS  PAYMENTS    PAYMENTS   PERCENTAGE
 COMPONENT    IDENTIFIED RECOVERED  OUTSTANDING RECOVERED
 FPI           $43,182    $12,355    $30,827       29%
Source: Management at the FPI and the recovery audit contractor

      The scope of the FPI's recovery audit program includes the following
two criteria to ensure that the program is cost-effective.

   •   The recovery audit contractor reviews data in fiscal year increments
       and only includes vendors with total payments exceeding $12,500
       during the fiscal year.

   •   The recovery audit contractor will not pursue claims less than $500 per
       transaction.

       After the recovery audit contractor's review, the FPI receives the
potential improper payment claims and validates them. According to the
draft Recovery Audit Program, Program Statement, the validation will include
confirmation by the vendor of the amount recoverable, confirmation by the
FPI transacting staff (such as the receiver of goods or services, the procuring
official, and the disbursing official) of the amount recoverable, verification
that subsequent resolution of the recoverable amount has not occurred, and
verification that amounts due have not been recovered. Upon validation, the
claim is approved and collection is pursued. Additionally, the FPI prepares
monthly summaries of recovery audit claims, including the causes.

       According to Bulletin 06-11, "recovery audit programs must determine,
at a minimum, duplicate payments, payments made for incorrect amounts,
payments for which allowable discounts were not taken and goods and
services were not received, and if payments were contract compliant.
Contract compliance reviews will determine if payments made were
consistent with the terms and conditions of the contract. All classes of
contract/vendor payments are to be considered for recovery audits." The
FPI's recovery audit program looks for all of those types of improper
payments except that it does not include a contract compliance review as
required by Bulletin 06-11.




                                        - 30 -
      We discussed this issue with FPI management, and they explained that
contract compliance review had not started because the contractor is not at
the level to conduct this review. Specifically, according to FPI management,
the recovery audit contractor operates in phases, and has not implemented
the review yet.

       Additionally, our audit found that the FPI does not have a final written
policy for its recovery audit program. Instead, the FPI has a draft policy for
complying with the IPIA and for its recovery audit program. According to
Bulletin 06-11, “each component is required to develop and implement
written policies and procedures for its recovery audit program.” We
acknowledge that the FPI has a draft policy for its recovery audit program,
but recommend that the FPI develop a final written policy as it is an
important tool to ensure FPI staff complies with the IPIA and the NDAA.

     We discussed this issue with FPI management, and they concurred.
However, they stated that due to various levels of review, it takes
approximately 1 year for a draft policy to become final. The FPI
management agreed to implement a final policy for its recovery audit
program.

Drug Enforcement Administration

Recovery Audit Program

       Although the DEA's initial recovery audit program began in FY 2004
and continued through FY 2005, it was not a comprehensive recovery audit
program. Instead, a statistical sample of payments pulled from a population
of all DEA payment categories, except payroll, were selected and tested to
determine if any improper payments were made. Additionally, improper
payments were identified by COTRs, Financial Management Division, as well
as through other internal controls. In FY 2006, the DEA established a new
recovery audit program, administered by the Financial Analysis and
Reporting Unit (FNOF), which reports recovery audit information to JMD.
The FNOF reviews all payments applicable to the IPIA, instead of sampling
payments, and constitutes a comprehensive recovery audit program. As
shown in Table 6, as of May 2006, the DEA stated that a total of $403,305 in
improper payments were identified and confirmed from FYs 2003 through
2005, of which $386,833 was recovered.




                                     - 31 -
Table 6: IMPROPER PAYMENTS IDENTIFIED AND RECOVERED BY
         THE DEA
               IMPROPER  IMPROPER    IMPROPER
               PAYMENTS  PAYMENTS    PAYMENTS   PERCENTAGE
 COMPONENT    IDENTIFIED RECOVERED  OUTSTANDING RECOVERED
 DEA          $403,305   $386,833     $16,472      96%
Source: Management at the DEA

      The scope of the DEA’s recovery audit program encompasses all
payments made from FYs 2003 through 2005. However, the DEA’s initial
recovery audit program did not review all payments made from FY 2003
forward as required by Bulletin 06-11. Instead, a sample of payments was
tested from each fiscal year. After we noted this deficiency to DEA
management during the course of our audit, the DEA completed and
provided documentation for its review of all payments related to the IPIA
from FYs 2003 through 2005. Therefore, a formal recommendation will not
be made.

      DEA management had established an internal recovery audit team,
FNOF, rather than utilizing the recovery audit contractor. Bulletin 06-11
states, "The Director, JMD Finance Staff, has implemented a
department-wide recovery audit contract, which all components are required
to use unless a waiver is granted. Requests for waivers must be forwarded
to the Director, Finance Staff, and include a complete description of your
Recovery Audit Program and the cost of the program." During our audit we
found that the DEA had not submitted a request for waiver to the Director of
the JMD Finance Staff describing its internal recovery audit program or its
cost. In our opinion, submitting a request for waiver ensures each DOJ
component has a cost-effective recovery audit program in place. As a result
of our audit, on November 30, 2006, DEA management submitted a request
for waiver to the Director of the JMD Finance Staff describing its internal
recovery audit program and received approval on the same day. Therefore,
a formal recommendation will not be made.

       During our audit, we found that the DEA has a contract closeout
process, which verifies that: (1) all payments are proper; (2) all goods and
services have been received; (3) all federal property has been returned;
(4) all invoices have been paid; (5) no over, under, or duplicate payments
were paid; (6) all applicable discounts have been taken and received; and
(7) interest has been paid. At the time of our audit, no improper payments
were identified through the contract closeout process. The DEA
management explained that if an improper payment was identified, it would
be corrected by the contract closeout team at the time of reconciliation and
would not be reported to the FNOF. By not reporting identified and


                                   - 32 -
recovered improper payments to the FNOF, the DEA may potentially
understate the amounts in its annual IPIA report, which are consolidated
with other DOJ components into the DOJ’s PAR. As a result of our audit, on
November 22, 2006, DEA management revised its Contract Closeout
Handbook to include the requirements that the Financial Operations Section
be notified of any improper payments prior to actual contract close out. The
Financial Operation Section contains four units, one of which is the FNOF,
and will notify FNOF of any improper payment information. Therefore, a
formal recommendation will not be made.

       During our fieldwork we found that the DEA had established policies
for its recovery audit program, although the policies were in various
documents. Bulletin 06-11 requires, "each component to develop and
implement written policies and procedures for its recovery audit program."
We recommended the DEA consolidate the policies into a single source that
can be easily accessed. DEA management concurred with our
recommendation and combined the recovery audit policies into a Recovery
Audit Standard Operating Procedure, which the DEA provided to us.
Therefore, a formal recommendation will not be made.

Statutory and Regulatory Barriers

       OMB Circular A-123, Appendix C states that agencies with improper
payment estimates less than $10 million are only required to report the total
estimate in their annual PARs to OMB. These agencies are no longer
required to include a description of any statutory or regulatory barriers
which limit corrective actions in reducing improper payments. 19 This
criterion applies to each DOJ program, rather than to the individual
components. Because the improper payment estimate for each DOJ
program is less than $10 million, in our judgment, DOJ is not required to
include this information in its PAR report for FY 2006. Nonetheless,
Bulletin 06-11 still required the individual components to include the
information in their IPIA reports. As a result, below we noted a finding
related to the DEA and this requirement, but do not offer a recommendation
related to this issue.

     While reviewing the DEA's recovery audit program, we found that the
DEA does not include contract payments at DEA foreign offices, which are
processed by the Department of State via a reimbursable agreement. The
DEA has not been granted disbursing authority by the Department of the
Treasury. Instead, the State Department has designated United States

       19
           OMB Circular A-136 - Revised July 2006, requires additional IPIA and recovery
audit information to be included in the annual PAR.



                                          - 33 -
Disbursing Officers, who have been delegated disbursing authority by the
Department of the Treasury and authorized by the Treasury Secretary. Only
a Disbursing Officer can make payments in local currency, which enables an
agency to conduct business overseas. As a result, the State Department
makes all of the DEA’s foreign payments. Additionally, if a federal agency
wants to conduct business overseas, contracts must be negotiated through
the International Cooperative Administrative Support Services.

      Bulletin 06-11 required the annual IPIA reports to include within
Item 8 a description of any statutory or regulatory barriers which limit
corrective actions in reducing improper payments. We recognize that the
DEA does not have contracting or disbursing authority overseas. However,
in our opinion, this information concerning disbursements by the State
Department on behalf of the DEA should be included within Item 8 of the
IPIA.

Bureau of Alcohol, Tobacco, Firearms and Explosives

Recovery Audit Program

      ATF's internal recovery audit activities began in 2001. They include:
(1) reviewing the accounts payable listing to identify payables exceeding
90 days that can identify multiple payments made in other forms;
(2) requiring COTRs to ensure that payments follow the terms of the
contract that can identify duplicate payments and under- or over-spending
on the contracts; and (3) conducting the contract closeout process, which
compares payments to the language in the contract to identify missed
discounts, duplicate payments, under- or over-payments, or improper
payments that may not be allowed by the contract.

       As shown in Table 7, ATF stated that it had identified $42,465 in
improper payments and recovered $8,830, as of May 2006. ATF officials
stated that they planned to pursue the remaining amount, as well as pursue
collection of all identified improper payments.

Table 7: IMPROPER PAYMENTS IDENTIFIED AND RECOVERED BY
         ATF
               IMPROPER  IMPROPER    IMPROPER
              PAYMENTS   PAYMENTS    PAYMENTS   PERCENTAGE
 COMPONENT    IDENTIFIED RECOVERED  OUTSTANDING RECOVERED
 ATF           $42,465    $8,830      $33,636      21%
Source: ATF management. The differences in the totals are due to rounding.




                                        - 34 -
       During our audit we found that improper payments that had not been
recovered are tracked on an aging of accounts receivable schedule.
However, after an improper payment is collected, ATF no longer tracks the
recovered improper payment. In addition, ATF pursues all improper
payments as regular debts and does not separately track improper payments
from other debts. Therefore, ATF cannot determine when the identified and
recovered improper payments occurred. Additionally, ATF cannot determine
whether the identified and recovered improper payment amounts provided
include all improper payments identified and recovered. Bulletin 06-11
requires each component to report the amount of improper payments
identified and recovered over the reporting period and cumulatively. It is
important for ATF to develop methods for tracking improper payments
separately from other debts, so it can provide accurate information on
improper payments identified and recovered that can be included in DOJ’s
annual PAR. Additionally, ATF should include the timeframe in which the
identified and recovered improper payments occurred. When we discussed
this issue with ATF management, they concurred with our finding and agreed
to revise and report the correct information – when it is available – in annual
IPIA and quarterly reports.

      Additionally, we found that ATF has not requested a waiver from the
Director, JMD Finance Staff, to not use the recovery audit contractor as
required by Bulletin 06-11. We believe, however, that ATF should utilize the
recovery audit contractor, unless an approved internal recovery audit
program that is compliant with all areas of Bulletin 06-11 and other
applicable laws and regulations is developed. When we discussed this issue
with ATF management, they concurred with our finding.

       ATF management stated that they are reviewing the accounts payable
listing for payments that are over 90 days old and conducting the contract
closeout process after a contract is closed. Management is also making sure
that Certifying Officers and COTRs perform their duties as necessary.
Although ATF management stated that they anticipate utilizing the recovery
audit contractor to review all payments from FY 2004 forward, they will need
to include all payments made from FY 2003 forward to be compliant with
Bulletin 06-11. Specifically, Bulletin 06-11 states, "the recovery audit must
encompass, at a minimum, all payments made from FY 2003 forward."
When we discussed this issue with ATF management, they noted that they
could encounter difficulties researching payments that occurred prior to
January 2003, when ATF became a DOJ component. In our judgment, ATF
needs to obtain a waiver if it is not possible to research prior payments.
Otherwise, ATF should expand the scope of its recovery audit activities to
encompass, at a minimum, all payments made from FY 2003 forward as
required by Bulletin 06-11. ATF management agreed to discuss the scope of


                                    - 35 -
its review of payments with JMD and review all payments FY 2003 forward, if
possible.

       Finally, our audit found that ATF had not developed a written policy for
its recovery audit activities. Instead, policies exist in both draft and final
form for portions of ATF’s recovery audit activities. According to
Bulletin 06-11, "each component is required to develop and implement
written policies and procedures for its recovery audit program." We
discussed this issue with ATF management and they concurred with our
finding and agreed to develop and implement a written final policy for the
recovery audit program when a program is in place.

Recommendations:

      We recommend that JMD:

12.   Develop and implement a department-wide policy for time limits after
      the recovery audit contractor identifies a potential improper payment
      and submits the claim to the component.

      We recommend that for the OBDs, JMD:

13.   Ensure each subcomponent submit the Notification of Erroneous
      Payment form (Attachment 2 of Bulletin 05-03) to JMD Finance Staff
      regarding improper payments identified and recovered by the OBDs as
      required by Bulletin 05-03.

14.   Ensure that its recovery audit program addresses and includes grants
      as required by Bulletin 06-11.

      We recommend that the FPI:

15.   Implement a contract compliance review within its recovery audit
      program as required by Bulletin 06-11.

16.   Implement a final policy for its recovery audit program as required by
      Bulletin 06-11.

      We recommend that ATF:

17.   Develop methods for tracking improper payments separately from
      other debts, so it can provide information on the amount of improper
      payments identified and recovered. Additionally, ATF should include



                                    - 36 -
      and maintain documentation on the timeframe in which the identified
      and recovered improper payments occurred.

18.   Demonstrate progress toward utilizing the recovery audit contractor as
      required by Bulletin 06-11, unless an approved internal recovery audit
      program that is compliant with all areas within Bulletin 06-11 and
      other applicable laws and regulations is developed, and a waiver is
      submitted to and approved by the Director, JMD Finance Staff as
      required by Bulletin 06-11.

19.   Expand the scope of the recovery audit program to encompass, at a
      minimum, all payments made from FY 2003 forward as required by
      Bulletin 06-11.

20.   Develop and implement a final written policy and procedure when a
      program is in place for ATF’s recovery audit program as required by
      Bulletin 06-11.




                                   - 37 -
                  STATEMENT ON COMPLIANCE WITH
                      LAWS AND REGULATIONS

      As required by Government Auditing Standards, we reviewed records
and other documents pertaining to improper payments to obtain reasonable
assurance about each component’s compliance with applicable laws and
regulations, which, if not complied with, could have a material effect on DOJ
compliance with those laws and regulations. Compliance with laws and
regulations applicable to improper payments is the responsibility of each
component’s management. An audit includes examining, on a test basis,
evidence about compliance with laws and regulations. At the time of our
audit, the pertinent legislation and the applicable regulations were:

  •   Pub. L. No. 107-300 (2002), Improper Payments Information Act of
      2002

  •   Pub. L. No. 107-107 (2001), National Defense Authorization Act for
      FY 2002, Subchapter VI – Recovery Audits

  •   Office of Management and Budget Memorandum M-03-07, Programs to
      Identify and Recover Erroneous Payments to Contactors

  •   Office of Management and Budget Memorandum M-03-12, Allowability
      of Contingency Fee Contracts for Recovery Audits

  •   Office of Management and Budget Memorandum M-03-13,
      Implementation Guidance for the Improper Payments Information Act
      of 2002, P.L. 107-300

  •   Office of Management and Budget Memorandum M-04-20, FY 2004
      Performance and Accountability Reports and Reporting Requirements
      for the Financial Report of the United States Government

  •   Office of Management and Budget Circular A-136 - Revised July 2006,
      Financial Reporting Requirements, Sections II.2.9 and II.5.6

  •   Office of Management and Budget Circular A-123, Appendix C,
      Requirements for Effective Measurement and Remediation of Improper
      Payments

  •   Office of Management and Budget Circular A-123 Revision,
      Management’s Responsibility for Internal Control

  •   Financial Management Policies and Procedures Bulletin 06-11


                                    - 38 -
      Except for the issues discussed in the Findings and Recommendations
section of this report, nothing came to our attention that caused us to
believe that the components in our audit were not in compliance with the
laws and regulations listed above and on the previous page.




                                  - 39 -
                 STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit, we considered internal controls
at DOJ components for the purpose of determining our auditing procedures.
We also reviewed various controls over the payment processes at these
components to develop an understanding of those processes. In addition,
we conducted a limited review of the controls, including policies and
procedures, which the OBDs, FPI, DEA, and ATF represented were in place to
prevent improper payments. However, these reviews did not include an
overall assessment or testing of the internal control structure. Therefore,
these reviews were not made for the purpose of providing assurance on the
internal control structure as a whole. However, we noted certain matters
that we consider to be reportable conditions under generally accepted
Government Auditing Standards.

      Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal control
structure that, in our judgment, could increase the risks for making improper
payments or could hinder the implementation of cost-effective recovery
audit programs. We noted deficiencies relating to the prevention of
improper payments, discussed in Finding 1. We also noted deficiencies
concerning the identification and recovery of improper payments, discussed
in Finding 2. However, we did not consider these deficiencies to be a result
of systemic internal control issues.

      Because we are not expressing an opinion on the components’ internal
control structure as a whole, this statement is intended solely for the
information and use of JMD, OBDs, FPI, DEA, and ATF in overseeing each
component’s compliance with the IPIA, and with implementing and
administering a recovery audit program within each component.




                                    - 40 -
                                                                          APPENDIX I

                     OBJECTIVES, SCOPE, AND METHODOLOGY

    The objectives of our audit were to determine whether selected DOJ
components established:

   •        policies and procedures for identifying improper and erroneous
            payments,

   •        policies and procedures for preventing improper and erroneous
            payments, and

   •        methods to recover improper and erroneous payments.

     We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were considered necessary to
accomplish the audit objectives.

      The audit generally covered activities from FY 1999 through the
conclusion of our fieldwork in May 2006. Audit work was conducted at the
Justice Management Division and at the four DOJ components selected for
review: (1) Offices, Boards and Divisions; (2) Federal Prison Industries;
(3) Drug Enforcement Administration; and (4) Bureau of Alcohol, Tobacco,
Firearms and Explosives. These components were selected based on a
request from JMD to expand the scope of the April 2005 OIG audit to include
the remaining four DOJ components mentioned above. 20

      Audit work was also performed at six subcomponents of the OBDs:
(1) Regime Crimes Liaison Office, (2) Office on Violence Against Women,
(3) Civil Division, (4) Office of Community Oriented Policing Services,
(5) Executive Office for Immigration Review, and (6) Wireless Management
Office. 21 Our methodology for selection of the specific subcomponents of the
OBDs included in our audit was to review the OBDs listing of
subcomponents, select high-vendor payment subcomponents,
subcomponents with foreign payments, and subcomponents with federal
award functions.

       20
        Department of Justice, Office of the Inspector General. Department of Justice
Process for Identifying, Preventing, and Recovering Improper and Erroneous Payments,
Audit Report No. 05-19, April 2005.
       21
        The Regime Crimes Liaison Office is a component of the Office of the Deputy
Attorney General.




                                         - 41 -
      We conducted on-site work at JMD and at each of the four components
in March and April 2006. Additional on-site work was performed at the six
selected subcomponents of the OBDs in May 2006. We interviewed staff
members at each location to:

  •   obtain an understanding of the procedures and rationale used to
      complete IPIA reports,

  •   gather information relating to payment processes,

  •   identify the controls in place to prevent or reduce improper payments,

  •   obtain an understanding of any processes used to identify and quantify
      improper payments already made, and

  •   assess any current recovery audit activities.

      In addition, we reviewed policies, procedures, and other
documentation related to these issues. Specifically, we reviewed the FY
2005 IPIA reports submitted by the components to JMD. The information in
these reports was analyzed in conjunction with Bulletin 06-11, dated March
2006. We used this approach in order to identify any necessary
enhancements for full compliance in the FY 2006 IPIA reporting period.

      Finally, we interviewed officials from the recovery audit contractor
being utilized by selected DOJ components and the subcomponents of the
OBDs. We obtained information on current efforts within DOJ, including the
processes used, results achieved, and anticipated future activities.




                                    - 42 -
                                                                     APPENDIX II

                THE PRESIDENT’S MANAGEMENT AGENDA

       According to a report from OMB, the President’s Management Agenda,
enacted in August 2001, is a strategy for improving the management and
performance of the federal government. It focuses on the areas where
deficiencies were most apparent and where the government could begin to
deliver concrete, measurable results. The President’s Management Agenda
includes the following five government-wide initiatives: 22

   •   Strategic Management of Human Capital – having processes in place to
       ensure the right person is in the right job, at the right time, and is not
       only performing, but performing well;

   •   Competitive Sourcing – regularly examining commercial activities
       performed by the government to determine whether it is more efficient
       to obtain such services from federal employees or from the private
       sector;

   •   Improved Financial Performance – accurately accounting for the
       taxpayers’ money, giving managers timely and accurate program cost
       information to make informed management decisions, and controlling
       costs;

   •   Expanded Electronic Government – ensuring that the federal
       government’s annual investment in information technology (IT)
       significantly improves the government’s ability to serve citizens, and
       that IT systems are secure, and delivered on time and on budget; and

   •   Budget and Performance Integration – ensuring that performance is
       routinely considered in funding and management decisions, and that
       programs achieve expected results and work toward continual
       improvement.

      The third initiative, “Improved Financial Performance,” includes
provisions for agencies to determine the extent of improper payments and to
establish goals for reducing them.



       22
          Excerpts from the President’s Management Agenda were taken from an OMB
report, entitled The Federal Government is Results-Oriented, dated August 2004.




                                       - 43 -
                                                       APPENDIX III

            DEPARTMENT OF JUSTICE
        OFFICES, BOARDS AND DIVISIONS
                      SUBCOMPONENT
      Antitrust Division
      Civil Division
      Civil Rights Division
      Community Relations Service
      Criminal Division
      Environment and Natural Resources Division
      Executive Office for Immigration Review
      Executive Office for United States Attorneys
      Executive Office for United States Trustees
      Foreign Claims Settlement Commission
      Interpol-United States National Central Bureau
      Justice Management Division
      National Drug Intelligence Center
      Office of the Associate Attorney General
      Office of the Attorney General
      Office of Community Oriented Policing Services
      Office of the Deputy Attorney General
      Office of Dispute Resolution
      Office of the Federal Detention Trustee
      Office of Information and Privacy
      Office of the Inspector General
      Office of Intelligence Policy and Review
      Office of Intergovernmental and Public Liaison
      Office of Legal Counsel
      Office of Legal Policy
      Office of Legislative Affairs
      Office of the Pardon Attorney
      Office of Professional Responsibility
      Office of Public Affairs
      Office of the Solicitor General
      Office on Violence Against Women
      Professional Responsibility Advisory Office
      Tax Division
      United States Parole Commission
      Wireless Management Office
Source: DOJ FY 2005 Performance and Accountability Report, Appendix B




                           - 44 -
                                                        APPENDIX IV

                 UNITED STATES ATTORNEY DISTRICTS
           DISTRICT NAME                     DISTRICT NAME
Alabama Middle District            Louisiana Middle District
Alabama Northern District          Louisiana Western District
Alabama Southern District          Maine District
Alaska District                    Maryland District
Arizona District                   Massachusetts District
Arkansas Eastern District          Michigan Eastern District
Arkansas Western District          Michigan Western District
California Central District        Minnesota District
California Eastern District        Mississippi Northern District
California Northern District       Mississippi Southern District
California Southern District       Missouri Eastern District
Colorado District                  Missouri Western District
Connecticut District               Montana District
Delaware District                  Nebraska District
District of Columbia District      Nevada District
Florida Middle District            New Hampshire District
Florida Northern District          New Jersey District
Florida Southern District          New Mexico District
Georgia Middle District            New York Eastern District
Georgia Northern District          New York Northern District
Georgia Southern District          New York Southern District
Guam District                      New York Western District
Hawaii District                    North Carolina Eastern District
Idaho District                     North Carolina Middle District
Illinois Central District          North Carolina Western District
Illinois Northern District         North Dakota District
Illinois Southern District         Ohio Northern District
Indiana Northern District          Ohio Southern District
Indiana Southern District          Oklahoma Eastern District
Iowa Northern District             Oklahoma Northern District
Iowa Southern District             Oklahoma Western District
Kansas District                    Oregon District
Kentucky Eastern District          Pennsylvania Eastern District
Kentucky Western District          Pennsylvania Middle District
Louisiana Eastern District         Pennsylvania Western District




                                - 45 -
                UNITED STATES ATTORNEY DISTRICTS
         DISTRICT NAME                       DISTRICT NAME
Puerto Rico District              Vermont District
Rhode Island District             Virgin Islands District
South Carolina District           Virginia Eastern District
South Dakota District             Virginia Western District
Tennessee Eastern District        Washington Eastern District
Tennessee Middle District         Washington Western District
Tennessee Western District        West Virginia Northern District
Texas Eastern District            West Virginia Southern District
Texas Northern District           Wisconsin Eastern District
Texas Southern District           Wisconsin Western District
Texas Western District            Wyoming District
Utah District
Source: Management at JMD Quality Control and Compliance Group




                                     - 46 -
                                                                 APPENDIX V

       ANNUAL IMPROPER PAYMENT INFORMATION ACT REPORT

To satisfy the reporting requirements of the Improper Payments Information
Act (IPIA), a brief summary of what components have accomplished, and
plan to accomplish, must be included in the Management Discussion and
Analysis (MD&A) portion of the Annual Performance and Accountability
Report. This summary, not to exceed 2 pages, must be entitled:

              Improper Payments Information Act of 2002
       Narrative Summary of Implementation Efforts for FY_____
                and Agency Plans for FY ____ - FY ____

In addition to the narrative summary above, the following items are the IPIA
Reporting Detail required for the report.

I.     Describe your component’s risk assessment(s), performed subsequent
       to compiling your full program inventory. List the risk-susceptible
       programs (i.e., programs that have a significant risk of improper
       payments based on OMB guidance thresholds) identified through your
       risk assessments. Be sure to include the programs previously
       identified in the former Section 57 of OMB Circular A-11.

II.    Describe the statistical sampling process conducted to estimate the
       improper payment rate for each program identified. Statistical
       sampling is not required in any program you have determined not to
       be at significant risk according to OMB thresholds.

III.   Describe the Corrective Action Plan for:

          A. Reducing the estimated rate of improper payments. Include in
             this discussion what is seen as the cause(s) of errors and the
             corresponding steps necessary to prevent future occurrences. If
             efforts are already underway, and/or have been ongoing for
             some length of time, it is appropriate to include that information
             in this section.

          B. Grant-making agencies with risk susceptible grant programs,
             discuss what your component has accomplished in the area of
             fund stewardship past the primary recipient. Include the status
             on projects and results of any reviews.




                                     - 47 -
      A response is not required for any program you have determined not
      to be at significant risk according to the OMB thresholds.

IV.   The table titled “Improper Payment Reduction Outlook” is required for
      each component. Note that: (1) all risk-susceptible programs must
      be listed in this chart whether or not an error measurement is being
      reported; (2) where no measurement is provided, components should
      indicate the date by which a measurement is expected; (3) if the
      Current Year (CY) is the baseline measurement year, indicate by either
      footnote or by “n/a” in the Prior Year (PY) column; (4) if any of the
      dollar amount(s) included in the estimate correspond to newly
      established measurement components in addition to previously
      established measurement components, separate the two amounts to
      the extent possible; (5) include outlay estimates for CY+1, +2, and
      +3; and (6) components are expected to report on CY activity.

                  Improper Payment Reduction Outlook
                            ($ in millions)

    Future year estimates (CY+1, +2, and +3) should match the outlay
estimates for those years as reported in the most recent President’s Budget.
                      PY                              CY
             PY       IP       PY            CY       IP     CY     CY+1      CY+1   CY+1
PROGRAM    OUTLAYS    %       IP $     OUTLAYS        %     IP $   OUTLAYS    IP %    IP $




            CY+2      CY+2           CY+2          CY+3     CY+3      CY+3
PROGRAM    OUTLAYS    IP %            IP $        OUTLAYS   IP %       IP $




Note: Improper Payment (IP)

Over- and under-payments should be indicated if this information is
available. The absolute value of the dollars and the rates should be
shown - do not net the figures.

V.    Discuss your component’s recovery auditing effort, if applicable,
      including any contract types excluded from review and the justification
      for doing so; actions taken to recoup improper payments, and the
      business process changes and internal controls instituted and/or
      strengthened to prevent further occurrences. In addition, complete
      the table below.


                                             - 48 -
              AMOUNT       ACTUAL                  AMOUNTS
             SUBJECT TO    AMOUNT     AMOUNTS     IDENTIFIED/
             REVIEW FOR   REVIEWED   IDENTIFIED     ACTUAL       AMOUNTS     AMOUNTS
               FY __         AND        FOR         AMOUNT      RECOVERED   RECOVERED
COMPONENT    REPORTING1   REPORTED    RECOVERY     REVIEWED        CY         PY(S)




1
     This amount should equal the total of each component’s commercial and non-
commercial payments.

VI.    Describe the steps the component has taken and planned (including a
       timeline) to ensure those agency managers (including agency heads)
       are held accountable for reducing and recovering improper payments.

VII.     A. Describe whether the component has the information system
            and infrastructure it needs to reduce improper payments to the
            levels the component has targeted.

         B. If the component does not have such systems and
            infrastructure, describe the resources the component requested
            in its budget submission to Congress to obtain the necessary
            information systems and infrastructure.

VIII. Describe any statutory or regulatory barriers, which may limit the
      component’s corrective actions in reducing improper payments and
      actions taken by the component to mitigate the barriers’ effects.

IX.    Additional comments, if any, on overall component efforts, specific
       programs, best practices, or common challenges identified, as a result
       of IPIA implementation.




                                       - 49 -
                                                     APPENDIX VI

                          ACRONYMS
ACRONYM                            NAME
 ATF      Bureau of Alcohol, Tobacco, Firearms and Explosives
 BOP      Federal Bureau of Prisons
 CIV      Civil Division
 COPS     Office of Community Oriented Policing Services
 COTRs    Contracting Officer Technical Representatives
 CY       Current Year
 DEA      Drug Enforcement Administration
 DOJ      Department of Justice
 EOIR     Executive Office for Immigration Review
 FBI      Federal Bureau of Investigation
 FNOF     Financial Analysis and Reporting Unit
 FPI      Federal Prison Industries
 FY       Fiscal Year
 IP       Improper Payment
 IPIA     Improper Payments Information Act of 2002
 JMD      Justice Management Division
 MD&A     Management Discussion and Analysis
 NDAA     National Defense Authorization Act for FY 2002
 OBDs     Offices, Boards and Divisions
 OIG      Office of the Inspector General
 OJP      Office of Justice Programs
 OMB      Office of Management and Budget
 OVW      Office on Violence Against Women
 PAR      Performance and Accountability Report
 PY       Prior Year
 RCLO     Regime Crimes Liaison Office
 USMS     United States Marshals Service
 WMO      Wireless Management Office




                           - 50 -
         APPENDIX VII




- 51 -
- 52 -
- 53 -
         APPENDIX VIII




- 54 -
- 55 -
         APPENDIX IX




- 56 -
- 57 -
         APPENDIX X




- 58 -
- 59 -
- 60 -
                                                             APPENDIX XI

                ANALYSIS AND SUMMARY OF ACTIONS
                 NECESSARY TO CLOSE THE REPORT

      We provided a draft audit report to JMD, FPI, DEA, and ATF for review
and comments. Each component’s comments have been incorporated in
Appendices VII through X of this report, which details the actions taken or
plans for implementing our recommendations. Based on the written
comments from the audited components, minor adjustments were made to
the report and the status of the recommendations are as follows.

1.   Closed (JMD).

2.   Closed (JMD).

3.   Resolved (OBDs/JMD). This recommendation can be closed when
     we receive documentation supporting that for the OBDs, JMD has
     included the following information within the OBDs’ risk assessment:
     (1) the results from the most recent financial statement audit,
     including any material weaknesses or reportable conditions; (2) the
     effect of those weaknesses or conditions on its risk of making improper
     payments; and (3) a description of the corrective action taken to
     address those weaknesses or conditions as required by Bulletin 06-11.

4.   Resolved (OBDs/JMD). This recommendation can be closed when
     we receive documentation supporting that for the OBDs, JMD has
     included the following information within the OBDs’ risk assessment:
     (1) an assurance statement of an unqualified, qualified, or
     no-assurance opinion; (2) the reason for the opinion and its effect on
     the component's risk of making improper payments; and (3) any
     corrective actions being taken to address the opinion and the
     component's risk.

5.   Resolved (OBDs/JMD). This recommendation can be closed when
     we receive documentation supporting that for the OBDs, JMD has
     included an assessment of federal award payments made by the
     recipients and subrecipients as required by Bulletin 06-11.

6.   Resolved (FPI). This recommendation can be closed when we
     receive documentation supporting that the FPI has included the
     following information within its risk assessment: (1) the results from
     the most recent financial statement audit, including any material
     weaknesses or reportable conditions; (2) the effect of those


                                   - 61 -
      weaknesses or conditions on its risk of making improper payments;
      and (3) a description of the corrective action taken to address those
      weaknesses or conditions as required by Bulletin 06-11.

7.    Resolved (FPI). This recommendation can be closed when we
      receive documentation supporting that the FPI has included the
      following information within its risk assessment: (1) an assurance
      statement of an unqualified, qualified, or no-assurance opinion;
      (2) the reason for the opinion and its effect on the component's risk of
      making improper payments; and (3) any corrective actions being
      taken to address the opinion and the component's risk.

8.    Resolved (DEA). This recommendation can be closed when we
      receive documentation supporting that the DEA has included the
      following information within its risk assessment: (1) an assurance
      statement of an unqualified, qualified, or no-assurance opinion;
      (2) the reason for the opinion and its effect on the component's risk of
      making improper payments; and (3) any corrective actions being
      taken to address the opinion and the component's risk.

9.    Resolved (ATF). This recommendation can be closed when we
      receive documentation supporting that ATF has included the following
      information within its risk assessment: (1) the results from the most
      recent financial statement audit, including any material weaknesses or
      reportable conditions; (2) the effect of those weaknesses or conditions
      on its risk of making improper payments; and (3) a description of the
      corrective action taken to address those weaknesses or conditions as
      required by Bulletin 06-11.

10.   Resolved (ATF). This recommendation can be closed when we
      receive documentation supporting that ATF has included the following
      information within its risk assessment: (1) an assurance statement of
      an unqualified, qualified, or no-assurance opinion; (2) the reason for
      the opinion and its effect on the component's risk of making improper
      payments; and (3) any corrective actions being taken to address the
      opinion and the component's risk.

11.   Resolved (ATF). This recommendation can be closed when we
      receive documentation supporting that ATF has conducted a complete
      program inventory and risk assessment for each program, and
      maintained documentation as required by Bulletin 06-11.

12.   Closed (JMD).



                                    - 62 -
13.   Closed (OBDs/JMD).

14.   Resolved (OBDs/JMD). This recommendation can be closed when
      we receive documentation supporting that for the OBDs, JMD has
      addressed and included grants within the OBDs’ recovery audit
      program as required by Bulletin 06-11.

15.   Resolved (FPI). This recommendation can be closed when we
      receive documentation supporting that the FPI has implemented a
      contract compliance review within its recovery audit program as
      required by Bulletin 06-11.

16.   Resolved (FPI). This recommendation can be closed when we
      receive documentation supporting that the FPI has implemented a final
      policy for its recovery audit program as required by Bulletin 06-11.

17.   Resolved (ATF). This recommendation can be closed when we
      receive documentation supporting that ATF has developed methods for
      tracking improper payments separately from other debts, so it can
      provide information on the amount of improper payments identified
      and recovered; and ATF has included and maintained documentation
      on the timeframe in which the identified and recovered improper
      payments occurred.

18.   Resolved (ATF). This recommendation can be closed when we
      receive documentation supporting that ATF has demonstrated progress
      toward utilizing the recovery audit contractor as required by
      Bulletin 06-11.

19.   Resolved (ATF). This recommendation can be closed when we
      receive documentation supporting that ATF has expanded the scope of
      the recovery audit program to encompass, at a minimum, all
      payments made from FY 2003 forward as required by Bulletin 06-11.

20.   Resolved (ATF). This recommendation can be closed when we
      receive documentation supporting that ATF has developed and
      implemented a final written policy and procedure when a program is in
      place for ATF’s recovery audit program as required by Bulletin 06-11.




                                   - 63 -
